App. 1

APPENDIX A
IN THE SUPREME COURT
OF CALIFORNIA
Case No. S249923
[Filed: April 2, 2020]
____________________________________
ROCKEFELLER TECHNOLOGY
)
INVESTMENTS (ASIA) VII,
)
Plaintiff and Respondent,
)
v.
)
CHANGZHOU SINOTYPE
)
TECHNOLOGY CO., LTD.,
)
Defendant and Appellant.
)
____________________________________)
Second Appellate District, Division Three
B272170
Los Angeles County Superior Court
BS149995
Justice Corrigan authored the opinion of the Court, in
which Chief Justice Cantil-Sakauye and Justices Chin,
Liu, Cuéllar, Kruger, and Groban concurred.
Opinion of the Court by Corrigan, J.
The parties here, sophisticated business entities,
entered into a contract wherein they agreed to submit
to the jurisdiction of California courts and to resolve
disputes between them through California arbitration.

App. 2
They also agreed to provide notice and “service of
process” to each other through Federal Express or
similar courier. The narrow question we address is
whether the Convention on the Service Abroad of
Judicial and Extrajudicial Documents in Civil or
Commercial Matters, November 15, 1965, 20 U.S.T.
361, T.I.A.S. No. 6638 (Hague Service Convention or
“the Convention”) preempts such notice provision if the
Convention provides for a different method of service.
Consistent with United States Supreme Court
authority, we conclude that the Convention applies
only when the law of the forum state requires formal
service of process to be sent abroad. We further
conclude that, because the parties’ agreement
constituted a waiver of formal service of process under
California law in favor of an alternative form of
notification, the Convention does not apply. We reverse
the Court of Appeal’s contrary decision.
I. BACKGROUND
Changzhou SinoType Technology Co., Ltd.
(SinoType) is based in China and specializes in
developing Chinese graphical fonts. During 2007 and
2008, its chairman, Kejian “Curt” Huang, discussed
forming a new company with Faye Huang, president of
Rockefeller Technology Investments (Asia) VII
(Rockefeller).1 In February 2008, they signed a
Memorandum of Understanding (MOU). The MOU
reflected an intent to form the new company, allocate
interests and responsibilities between the two existing

1

Because Curt Huang and Faye Huang have the same surname,
we refer to them by their first names.

App. 3
companies and transfer assets to the new entity. The
MOU provided that the parties would, “with all
deliberate speed, within 90 days if possible,” attempt to
draft “long form agreements carrying forth the
agreements made” in the MOU. The MOU also stated,
“this Agreement shall be in full force and effect and
shall constitute the full understanding of the Parties
that shall not be modified by any other agreements,
oral or written.” The MOU provided:
“6. The Parties shall provide notice in the English
language to each other at the addresses set forth in the
Agreement via Federal Express or similar courier, with
copies via facsimile or email, and shall be deemed
received 3 business days after deposit with the courier.
“7. The Parties hereby submit to the jurisdiction of
the Federal and State Courts in California and consent
to service of process in accord with the notice
provisions above.
“8. In the event of any disputes arising between the
Parties to this Agreement, either Party may submit the
dispute to the Judicial Arbitration & Mediation Service
in Los Angeles for exclusive and final resolution
pursuant to according to [sic] its streamlined
procedures before a single arbitrator who shall have
ten years judicial service at the appellate level,
pursuant to California law, and who shall issue a
written, reasoned award. The Parties shall share
equally the cost of the arbitration. Disputes shall
include failure of the Parties to come to Agreement as
required by this Agreement in a timely fashion.”

App. 4
Eventually, negotiations broke down and the “long
form agreements” were never finalized. In February
2012, Rockefeller sought arbitration. The arbitrator2
found that SinoType received notice on numerous
occasions and “all materials were sent both by email
and Federal Express” to the Chinese address listed for
it in the MOU.3 SinoType neither responded nor
appeared. In November 2013, the arbitrator concluded
Rockefeller was entitled to an award of $414,601,200.
His written decision was sent to SinoType by Federal
Express and e-mail.
Rockefeller petitioned to confirm the award (Code
Civ. Proc., § 1285), and transmitted the petition and
summons to SinoType through Federal Express and email. SinoType did not appear and the award was
confirmed in October 2014. In November 2015,
Rockefeller sought assignment of various future royalty
payments that several companies owed to SinoType.

2

Richard C. Neal, former justice of the Court of Appeal, Second
Appellate District, Division Seven, served as arbitrator.

3

Specifically, the arbitrator found: “Written proofs of service in the
JAMS [Judicial Arbitration and Mediation Service] file, prepared
and signed by JAMS Case Managers, confirm that Respondent was
given due written notice of all of the events mentioned above,
including submission of the demand for arbitration,
commencement of the arbitration, appointment of the Arbitrator,
the preliminary telephone conference, the hearing scheduled for
September 14, 2012, continuance of the hearing to February 4,
2013, and the Interim Order requiring additional submissions.
Notices and copies of all materials were sent both by email and
Federal Express to Respondent’s Chairman Kejiang ‘Curt’ Huang,
Changzhou Sinotype [sic] Technology Co.[,] Ltd[.], Niutang Town,
Changzhou, Jiangsu 213168, China.”

App. 5
(See Code Civ. Proc., § 708.510.) SinoType specially
appeared and moved “to quash and to set aside default
judgment for insufficiency of service of process.” (See
Code Civ. Proc., § 473, subd. (b).) SinoType asserted
that it did not receive actual notice of any proceedings
until March 2015 and argued that Rockefeller’s failure
to comply with the Hague Service Convention rendered
the judgment confirming the arbitration award void. In
a declaration supporting the motion, chairman Curt
acknowledged that, in January 2012, he had received
a letter from Faye that “mentioned arbitration.” He
further declared that “[s]ince Faye Huang and others
had harassed me previously, and because I did not
believe there was any binding agreement between
SinoType and [Rockefeller], I decided to ignore the
letter and subsequent FedEx packages and emails. I
did not open them.” Curt claimed that he only opened
the Federal Express packages in March 2015 after a
client told him Rockefeller claimed SinoType owed it
money. The motion to set aside the judgment was
denied,4 but the Court of Appeal reversed. (See
Rockefeller Technology Investments (Asia) VII v.
Changzhou SinoType Technology Co., Ltd. (2018) 24
Cal.App.5th 115, review granted Sept. 26, 2018,
S249923 (Rockefeller Technology Investments).)
II. DISCUSSION
A. The Hague Service Convention
As to the superior court proceeding to confirm the
arbitration award, SinoType argues the Hague Service
4

Los Angeles County Superior Court Judge Randolph M.
Hammock ruled on the motion.

App. 6
Convention applies because notice of the proceeding
was sent abroad to China, where defendant is based.
Mirroring the Court of Appeal’s reasoning below,
SinoType contends that China’s objection to Article 10
of the Convention precludes service in China through
Federal Express. SinoType was never properly served,
and the judgment confirming the arbitration award is
void for lack of personal jurisdiction. (See Rockefeller
Technology Investments, supra, 24 Cal.App.5th at pp.
133-135.) To address this contention, we examine the
language of the Hague Service Convention and
pertinent United States Supreme Court authority.
The Convention is “a multilateral treaty that was
formulated in 1964 by the Tenth Session of the Hague
Conference of Private International Law . . . [and] was
intended to provide a simpler way to serve process
abroad, to assure that defendants sued in foreign
jurisdictions would receive actual and timely notice of
suit, and to facilitate proof of service abroad.”
(Volkswagenwerk Aktiengesellschaft v. Schlunk (1988)
486 U.S. 694, 698 (Volkswagenwerk).) The United
States was an original signatory, and China adopted it
in 1992. (Kott v. Superior Court (1996) 45 Cal.App.4th
1126, 1134-1135 (Kott); Hyundai Merchant Marine v.
Grand China Shipping (S.D.Ala. 2012) 878 F.Supp.2d
1252, 1262, fn. 5; see also Volkswagenwerk, at p. 698.)
Article 1 of the Convention states it “shall apply in
all cases, in civil and commercial matters, where there
is occasion to transmit a judicial or extrajudicial
document for service abroad.” (Hague Service
Convention, supra, 20 U.S.T. at p. 362.) The
Convention requires each member state to “designate

App. 7
a Central Authority which will undertake to receive
requests for service coming from other contracting
States and to proceed in conformity with the provisions
of articles 3 to 6.” (Ibid.) “The Central Authority of the
State addressed shall itself serve the document or shall
arrange to have it served by an appropriate agency,
either— [¶] (a) by a method prescribed by its internal
law for the service of documents in domestic actions
upon persons who are within its territory, or [¶] (b) by
a particular method requested by the applicant, unless
such a method is incompatible with the law of the State
addressed.” (Ibid.) “The primary innovation of the
Convention is that it requires each state to establish a
central authority to receive requests for service of
documents from other countries. [Citation.] Once a
central authority receives a request in the proper form,
it must serve the documents by a method prescribed by
the internal law of the receiving state or by a method
designated by the requester and compatible with that
law. [Citation.] The central authority must then
provide a certificate of service that conforms to a
specified model.”5 (Volkswagenwerk, supra, 486 U.S. at
pp. 698-699.)

5

Submitting a request to a central authority is not, however, the
only method of service approved by the Convention. For example,
Article 8 permits service through diplomatic and consular agents;
Article 11 provides that any two states can agree to methods of
service not otherwise specified in the Convention; and Article 19
clarifies that the Convention does not preempt any internal laws
of its signatories that permit service from abroad via methods not
otherwise allowed by the Convention.” (Water Splash, Inc. v.
Menon (2017) 581 U.S.__, __ [137 S.Ct. 1504, 1508] (Water
Splash).)

App. 8
As relevant here, article 10 of the Convention
states: “Provided the State of destination does not
object, the present Convention shall not interfere
with— [¶] (a) the freedom to send judicial documents,
by postal channels, directly to persons abroad, [¶] (b)
the freedom of judicial officers, officials or other
competent persons of the State of origin to effect
service of judicial documents directly through the
judicial officers, officials or other competent persons of
the State of destination, [¶] (c) the freedom of any
person interested in a judicial proceeding to effect
service of judicial documents directly through the
judicial officers, officials or other competent persons of
the State of destination.” (Hague Service Convention,
supra, 20 U.S.T. at p. 363, italics added.) “Each
signatory nation may ratify, or object to, each of the
articles” of the Convention. (Honda Motor Co. v.
Superior Court (1992) 10 Cal.App.4th 1043, 1045
(Honda Motor).) When it adopted the Convention,
China objected to article 10.6 (See Zhang v. Baidu.com
Inc. (S.D.N.Y. 2013) 932 F.Supp.2d 561, 567.) By its
objection, the nation of China declined to embrace
article 10’s alternative service methods.
The question here is whether China’s objection
estops its citizens from agreeing to notification
6

The objection has been noted by the Hague Conference on Private
International Law, which administers the Convention. (Hague
Conference on Private International Law, Declaration/Reservation/
Notification<https://www.hcch.net/en/instruments/conventions/
statustable/notifications/?csid=393&disp=resdn> [as of April 2,
2020]; the Internet citation in this opinion is archived by year,
docket number, and case name at <http://www.courts.ca.gov/
38324.htm>.)

App. 9
arguably covered by article 10. Two United States
Supreme Court cases inform the application of the
Convention. In Volkswagenwerk, the high court
addressed whether a foreign corporation could properly
be served through a wholly-owned domestic subsidiary.
The court acknowledged that article 1 of the
Convention stated it “ ‘shall apply in all cases, in civil
or commercial matters, where there is occasion to
transmit a judicial or extrajudicial document for service
abroad.’ ” (Volkswagenwerk, supra, 486 U.S. at p. 699.)
However, the high court observed that “[t]he
Convention does not specify the circumstances in which
there is ‘occasion to transmit’ a complaint ‘for service
abroad.’ But at least the term ‘service of process’ has a
well-established technical meaning. Service of process
refers to a formal delivery of documents that is legally
sufficient to charge the defendant with notice of a
pending action. [Citations.] The legal sufficiency of a
formal delivery of documents must be measured
against some standard. The Convention does not
prescribe a standard, so we almost necessarily must
refer to the internal law of the forum state. If the
internal law of the forum state defines the applicable
method of serving process as requiring the transmittal
of documents abroad, then the Hague Service
Convention applies.” (Id. at p. 700.) Volkswagenwerk
relied upon the negotiating history of the Convention to
support its view that “Article 1 refers to service of
process in the technical sense” (ibid.), and “whether
there is service abroad must be determined by
reference to the law of the forum state” (id. at p. 701).
While noting that “compliance with the Convention
is mandatory in all cases to which it applies”

App. 10
(Volkswagenwerk, supra, 486 U.S. at p. 705), and “the
Convention pre-empts inconsistent methods of service
prescribed by state law in all cases to which it applies”
(id. at p. 699), the high court concluded the Illinois
long-arm statute at issue authorized service of a
foreign corporation through a domestic subsidiary. (Id.
at p. 706.) As such, under the law of the forum state,
“this case does not present an occasion to transmit a
judicial document for service abroad within the
meaning of Article 1. Therefore the Hague Service
Convention does not apply, and service was proper.”
(Id. at pp. 707-708.)
Water Splash resolved “a broader conflict among
courts as to whether the Convention permits service
through postal channels.” (Water Splash, supra, 581
U.S. at p. __ [137 S.Ct. at p. 1508].) The court
concluded that article 10(a) does not preclude service by
mail but warned: “To be clear, this does not mean that
the Convention affirmatively authorizes service by
mail. Article 10(a) simply provides that, as long as the
receiving state does not object, the Convention does not
‘interfere with . . . the freedom’ to serve documents
through postal channels. In other words, in cases
governed by the Hague Service Convention, service by
mail is permissible if two conditions are met: first, the
receiving state has not objected to service by mail; and
second, service by mail is authorized under otherwise
applicable law.” (Id. at p. __ [137 S.Ct. at p. 1513],
second italics added.)
We discern three relevant principles. First, the
Hague Service Convention applies only to “service of
process in the technical sense” involving “a formal

App. 11
delivery of documents.” (Volkswagenwerk, supra, 486
U.S. at p. 700.) The distinction between formal service
and mere notice appears consistent with the Practical
Handbook on the Operation of the Service Convention,
published by the Permanent Bureau of the Hague
Conference on Private International Law for guidance
regarding the Convention’s application. “[T]he
Convention cannot—and does not—determine which
documents need to be served. It is a matter for the lex
fori to decide if a document needs to be served and
which document needs to be served. Thus, if the law of
the forum states that a notice is to be somehow
directed to one or several addressee(s), without
requiring service, the Convention does not have to be
applied.” (Practical Handbook on the Operation of the
Service Convention (4th ed. 2016) par. 54, p. 23, fn.
omitted; see Denlinger v. Chinadotcom Corp. (2003)
110 Cal.App.4th 1396, 1402 [the Convention involves
“the concept of formal service of process”].)
Second, whether “there is occasion to transmit a
judicial or extrajudicial document for service abroad”
(Hague Service Convention, supra, 20 U.S.T. at p. 362)
is determined by reference to the law of the sending
forum, in this case California. (Volkswagenwerk, supra,
486 U.S. at pp. 700-701.) Volkswagenwerk concluded
there that the sending forum, Illinois, did not require
service abroad because its long-arm statute authorized
domestic service through a subsidiary. (Id. at pp. 706708.) Thus, because international service was not
required, the Hague Service Convention did not apply.
Third, if formal service of process is required under
the law of the sending forum, international

App. 12
transmission of service documents must comply with
the Convention. “[T]he preemptive effect of the Hague
Convention as to service on foreign nationals is beyond
dispute.” (Honda Motor, supra, 10 Cal.App.4th at p.
1049.) Thus, if the Convention applied here, and
assuming service by Federal Express constitutes a
species of service by mail,7 China’s objection to foreign
mail service under article 10(a) would preclude direct
service via Federal Express, regardless of whether
California law authorized such service.8 (See Water
Splash, supra, 581 U.S. at p. __ [137 S.Ct. at p. 1513].)
“Failure to comply with the Hague Service Convention
procedures voids the service even though it was made
in compliance with California law. [Citation.] This is
true even in cases where the defendant had actual
notice of the lawsuit.” (Kott, supra, 45 Cal.App.4th at p.
1136.)
For the reasons discussed below, we conclude that
the parties’ agreement constituted a waiver of formal
service of process under California law. The parties
waived formal service in favor of informal notification

7

Many of the cases refer to postal or mail service, while the
agreement here provided for service through Federal Express, a
private courier company. The parties do not argue that there is
any relevant difference between a governmental postal service or
private courier company. For purposes of this dispute, we assume
the Convention’s mail service provisions would apply in the same
manner to both.

8

At least one case has suggested that service via Federal Express
does not comport with California law because it does not require
a signed return receipt. (See Inversiones Papaluchi S.A.S. v.
Superior Court (2018) 20 Cal.App.5th 1055, 1066-1067.)

App. 13
through Federal Express or similar courier.
Accordingly, the Convention does not apply in this case.
B. Jurisdiction, Service of Process and Waiver
As we recognized over 160 years ago: “To sustain a
personal judgment the Court must have jurisdiction of
the subject-matter, and of the person. [Citation.] Where
the jurisdiction of the Court as to the subject-matter
has been limited by the Constitution or the statute, the
consent of parties cannot confer jurisdiction. But when
the limit regards certain persons, they may, if
competent, waive their privilege, and this will give the
Court jurisdiction.” (Gray v. Hawes (1857) 8 Cal. 562,
568.) “Jurisdiction of the subject matter cannot be
given, enlarged or waived by the parties. . . . However,
if the court has jurisdiction of the subject matter, the
rule is otherwise, and a party may voluntarily submit
himself to the jurisdiction of the court, or may, by
failing to seasonably object thereto, waive his right to
question jurisdiction over him. Process is waived by a
general appearance, in person or by attorney, entered
in the action, or by some act equivalent thereto, such as
the filing of a pleading in the case or by otherwise
recognizing the authority of the court to proceed in the
action.” (Harrington v. Superior Court (1924) 194 Cal.
185, 188-189, italics added.)
“ ‘Process’ signifies a writ or summons issued in the
course of a judicial proceeding.” (Code Civ. Proc., § 17,
subd. (b)(7).) “ ‘Service of process is the means by which
a court having jurisdiction over the subject matter
asserts its jurisdiction over the party and brings home
to him reasonable notice of the action.’ “ (Kappel v.
Bartlett (1988) 200 Cal.App.3d 1457, 1464, quoting

App. 14
Judicial Council of Cal., com., reprinted at 14 West’s
Ann. Code Civ. Proc. (1973 ed.) foll. § 413.10, p. 541; cf.
Meza v. Portfolio Recovery Associates, LLC (2019) 6
Cal.5th 844, 854.)
Thus, formal service of process performs two
important functions. From the court’s perspective,
service of process asserts jurisdiction over the person.
“Unless a named defendant agrees to waive service, the
summons continues to function as the sine qua non
directing an individual or entity to participate in a civil
action or forgo procedural or substantive rights.”
(Murphy Brothers, Inc. v. Michetti Pipe Stringing, Inc.
(1999) 526 U.S. 344, 351.) “The consistent
constitutional rule has been that a court has no power
to adjudicate a personal claim or obligation unless it
has jurisdiction over the person of the defendant.”
(Zenith Corp. v. Hazeltine (1969) 395 U.S. 100, 110.)
From the defendant’s perspective, “[d]ue notice to the
defendant is essential to the jurisdiction of all courts,
as sufficiently appears from the well-known legal
maxim, that no one shall be condemned in his person
or property without notice, and an opportunity to be
heard in his defence.” (Earle et al. v. McVeigh (1875) 91
U.S. 503, 503-504.) Service of process thus protects a
defendant’s due process right to defend against an
action by providing constitutionally adequate notice of
the court proceeding.
Cases have recognized that one may waive both
personal jurisdiction and notice aspects of service. “[I]t
is settled . . . that parties to a contract may agree in
advance to submit to the jurisdiction of a given court,
to permit notice to be served by the opposing party, or

App. 15
even to waive notice altogether.” (National Rental v.
Szukhent (1964) 375 U.S. 311, 315-316.)
With respect to personal jurisdiction, “ ‘ “[d]ue
process permits the exercise of personal jurisdiction
over a nonresident defendant . . . ,” ‘ inter alia, when
the defendant consents to jurisdiction. [Citations.] ‘A
party, even one who has no minimum contacts with
this state, may consent to jurisdiction in a particular
case.’ [Citations.] . . . [¶] Agreeing to resolve a
particular dispute in a specific jurisdiction, for
example, is one means of expressing consent to
personal jurisdiction of courts in the forum state for
purposes of that dispute.” (Szynalski v. Superior Court
(2009) 172 Cal.App.4th 1, 7-8.) “While subject matter
jurisdiction cannot be conferred by consent, personal
jurisdiction can be so conferred, and consent may be
given by a contract provision.” (Berard Construction Co.
v. Municipal Court (1975) 49 Cal.App.3d 710, 721.) As
the high court has recognized: “Because the
requirement of personal jurisdiction represents first of
all an individual right, it can, like other such rights, be
waived. . . . A variety of legal arrangements have been
taken to represent express or implied consent to the
personal jurisdiction of the court. In National []
Rental[] v. Szukhent, [supra,] 375 U.S. [at p.] 316 [], we
stated that ‘parties to a contract may agree in advance
to submit to the jurisdiction of a given court,’ and in
Petrowski v. Hawkeye-Security Co., 350 U.S. 495
(1956), the Court upheld the personal jurisdiction of a
District Court on the basis of a stipulation entered into
by the defendant. In addition, lower federal courts have
found such consent implicit in agreements to arbitrate.
[Citations.] Furthermore, the Court has upheld state

App. 16
procedures which find constructive consent to the
personal jurisdiction of the state court in the voluntary
use of certain state procedures.” (Insurance Corp. v.
Compagnie Des Bauxites (1982) 456 U.S. 694, 703-704;
see also Burger King Corp. v. Rudzewicz (1985) 471
U.S. 462, 472, fn. 14.)
Similarly with respect to notice, it has long been
settled that “[t]he due process rights to notice and
hearing prior to a civil judgment are subject to waiver.”
(D. H. Overmyer Co. v. Frick Co. (1972) 405 U.S. 174,
185.) The high court in Overmyer affirmed the
constitutionality of cognovit clauses, “the ancient legal
device by which the debtor consents in advance to the
holder’s obtaining a judgment without notice or
hearing” (id. at p. 176). Overmyer reasoned that,
“[e]ven if, for present purposes, we assume that the
standard for waiver in a corporate-property-right case
of this kind is the same standard applicable to waiver
in a criminal proceeding, that is, that it be voluntary,
knowing, and intelligently made, [citations], or ‘an
intentional relinquishment or abandonment of a known
right or privilege,’ [citations], and even if, as the Court
has said in the civil area, ‘[w]e do not presume
acquiescence in the loss of fundamental rights,’
[citation], that standard was fully satisfied here.” (Id.
at pp. 185-186.) California courts have since applied
the voluntary, knowing, and intelligent standard to
similar waiver provisions. (See Isbell v. County of
Sonoma (1978) 21 Cal.3d 61, 70; Capital Trust, Inc. v.
Tri-National Development Corp. (2002) 103
Cal.App.4th 824, 829-831; Commercial Nat. Bank of
Peoria v. Kermeen (1990) 225 Cal.App.3d 396, 401.)

App. 17
C. California Statutes Regarding Service of Process
“A court of this state may exercise jurisdiction on
any basis not inconsistent with the Constitution of this
state or of the United States.” (Code Civ. Proc.,
§ 410.10; see Cal. Const., art. VI, § 10; Donaldson v.
National Marine, Inc. (2005) 35 Cal.4th 503, 512.)
Generally, “[e]xcept as otherwise provided by statute,
the court in which an action is pending has jurisdiction
over a party from the time summons is served on him
as provided by Chapter 4 (commencing with Section
413.10).” (Code Civ. Proc., § 410.50, subd. (a).) Code of
Civil Procedure9 section 413.10 provides that “[e]xcept
as otherwise provided by statute, a summons shall be
served on a person: [¶] . . . [¶] (c) Outside the United
States, as provided in this chapter or as directed by the
court in which the action is pending, or, if the court
before or after service finds that the service is
reasonably calculated to give actual notice, as
prescribed by the law of the place where the person is
served or as directed by the foreign authority in
response to a letter rogatory. These rules are subject to
the provisions of the Convention on the ‘Service Abroad
of Judicial and Extrajudicial Documents’ in Civil or
Commercial Matters (Hague Service Convention).”
(§ 413.10, subd. (c).) “A summons may be served on a
person outside this state in any manner provided by
this article or by sending a copy of the summons and of
the complaint to the person to be served by first-class
mail, postage prepaid, requiring a return receipt.”
(§ 415.40; see § 415.30 [service by mail].) Other
9

Subsequent statutory references are to the Code of Civil
Procedure unless otherwise noted.

App. 18
prescribed statutory methods of service include
personal service (§ 415.10) and leaving documents at
an office, dwelling, or mailing address (combined with
a subsequent mailing) (§ 415.20). A corporation may be
served by presenting documents to its president or
chief executive officer, among others. (§ 416.10, subd.
(b).)
The present case arises out of Rockefeller’s attempt
to confirm an arbitration award. “Any party to an
arbitration in which an award has been made may
petition the court to confirm, correct or vacate the
award. The petition shall name as respondents all
parties to the arbitration and may name as
respondents any other persons bound by the
arbitration award.” (§ 1285; see §§ 1288 [time limits for
serving and filing petitions], 1290 [“A proceeding under
this title in the courts of this State is commenced by
filing a petition”].) “If a petition or response under this
chapter is duly served and filed, the court shall confirm
the award as made, whether rendered in this state or
another state, unless in accordance with this chapter it
corrects the award and confirms it as corrected, vacates
the award or dismisses the proceeding.” (§ 1286.) “A
petition under this title shall be heard in a summary
way in the manner and upon the notice provided by law
for the making and hearing of motions . . . .” (§ 1290.2;
see § 1005, subd. (b) [service of motions].)
Of particular relevance here are sections 1290.4 and
1293. Section 1290.4, subdivision (a) requires that “[a]
copy of the petition and a written notice of the time and
place of the hearing thereof and any other papers upon
which the petition is based shall be served in the

App. 19
manner provided in the arbitration agreement for the
service of such petition and notice.” (Italics added.)
Subdivision (b) provides that if an arbitration
agreement “does not provide the manner in which such
service shall be made and the person upon whom
service is to be made has not previously appeared in
the proceeding,” a person in California shall be served
“in the manner provided by law for the service of
summons in an action,” or upon a person outside the
state “by mailing the copy of the petition and notice
and other papers by registered or certified mail.”10
(§ 1290.4, subd. (b).)
Under section 1293, “[t]he making of an agreement
in this State providing for arbitration to be had within
this State shall be deemed a consent of the parties
thereto to the jurisdiction of the courts of this State to
enforce such agreement by the making of any orders
provided for in this title and by entering of judgment on
an award under the agreement.” This statute codified
our decision in Frey & Horgan Corp. v. Superior Court
(1936) 5 Cal.2d 401, which involved a California
corporation’s attempt to enforce a contractual
arbitration agreement against an out-of-state
corporation. Frey reasoned: “The contracts having been
made with direct affirmative reference to the right of
arbitration, and particularly with reference to the laws
of California, the provisions of [former] section 1282 of
the Code of Civil Procedure [pertaining to petitions to
compel arbitration] should be read into the contracts as
10

Section 1290.4, subdivision (c) concerns service where an
arbitration agreement does not specify a method of service but the
person has previously made an appearance or been served.

App. 20
part thereof. The agreement to submit the dispute to
the arbitration committee is an agreement to cooperate
in that proceeding. It is presumed that the contract
was made in good faith. Therefore it was an agreement
to submit to the jurisdiction within which the
arbitration must operate in order to give it the effect
contemplated by the contract and by the law.” (Frey &
Horgan Corp., at pp. 404-405.) A later case clarified
that Frey’s reasoning applied to proceedings to confirm
an arbitration award: “That ‘effect’ [noted in Frey], we
are satisfied, includes not only the enforcement of
arbitration agreements and the conduct of arbitration
proceedings, but the enforcement of the award
resulting from such arbitration in the manner provided
by California law. To hold otherwise would be
tantamount to a refutation of the principle of the Frey
& Horgan case, and would amount to an emasculation
and frustration of the purpose and objectives of the
arbitration laws of this state.” (Atkins, Kroll & Co. v.
Broadway Lbr. Co. (1963) 222 Cal.App.2d 646, 653.)
D. The Parties Waived Formal Service of Process
Under California Law
As discussed ante, formal service of process involves
two aspects: service as a method of obtaining personal
jurisdiction over a defendant and formalized
notification of court proceedings to allow a party to
appear and defend against the action. For the reasons
discussed below, we conclude the parties here, by
agreeing to the MOU, waived both aspects.
With respect to personal jurisdiction, paragraph 7
of the MOU expressly stated “[t]he Parties hereby
submit to the jurisdiction of the Federal and State

App. 21
Courts in California . . . .” Further, in paragraph 8, the
parties agreed to submit all disputes “to the Judicial
Arbitration & Mediation Service in Los Angeles for
exclusive and final resolution . . . pursuant to
California law . . . .” “Code of Civil Procedure section
1293 . . . gives California courts personal and subject
matter jurisdiction to enforce arbitration agreements
formed in California.” (Boghos v. Certain Underwriters
at Lloyd’s of London (2005) 36 Cal.4th 495, 504.) The
parties’ agreement to exclusively arbitrate any disputes
in California constituted consent to submit to the
jurisdiction of California courts to enforce that
agreement, including “by entering of judgment on an
award under the agreement.” (§ 1293.)
With respect to notice, paragraph 6 of the MOU
stated the parties “shall provide notice in the English
language to each other at the addresses set forth in the
Agreement via Federal Express or similar courier,”
while paragraph 7 clarified the parties “consent to
service of process in accord with the notice provisions
above.” Construed in tandem, these provisions leave
little doubt the parties intended to supplant any
statutory service procedures with their own agreement
for notification via Federal Express. Section 1290.4,
subdivision (a) gives effect to such an agreement by
requiring that documents “be served in the manner
provided in the arbitration agreement for the service of
such petition and notice.” That is, section 1290.4,
subdivision (a) authorizes parties to an arbitration
agreement to waive otherwise applicable statutory
requirements for service of summons in connection
with a petition to confirm an arbitration award and
agree instead to an alternative form of notification,

App. 22
which is exactly what the parties did in paragraph 6 of
the MOU.
The MOU’s language confirms the parties’ intent to
replace “service of process” with the alternate
notification method specified in the agreement. This
circumstance distinguishes Abers v. Rohrs (2013) 217
Cal.App.4th 1199, which construed section 1290.4,
subdivision (a). Abers involved leases with arbitration
clauses that included a provision stating notices could
be sent by mail. The homeowners in that case filed a
petition to vacate an arbitration award and mailed it to
the opposing party. Abers rejected the homeowners’
claim that the mailing satisfied section 1290.4,
subdivision (a): “Their argument fails because it
conflates the concept of providing notice with the
concept of serving process.” (Abers, at p. 1206.)
“Because paragraph 16 of the parties’ leases governs
only notice, and not service, it does not qualify as a
provision which specifies the manner in which a
petition to vacate an arbitration award may be served.
Consequently, the homeowners’ reliance on those notice
provisions as a means of demonstrating proper service
of the petition necessarily fails.” (Id. at pp. 1206-1207.)
By contrast here, the MOU not only contemplated that
notifications be sent via Federal Express, but also that
such notifications would take the place of formal
service of process.
It is true that section 1290.4, subdivision (a) refers
to “service,” but we do not agree the mere use of that
word controls whether the statute is referencing formal
service of process. In re Jennifer O. (2010) 184
Cal.App.4th 539 (Jennifer O.), which involved a

App. 23
juvenile dependency proceeding, faced an analogous
issue. The father, who lived in Mexico, was mailed a
notice of a hearing. Noting that Welfare and
Institutions Code section 293, subdivision (e) required
“[s]ervice of the notice,” the father argued compliance
with the Hague Service Convention was required.
Jennifer O. rejected the claim, observing that the high
court in Volkswagenwerk “held that despite the
provision’s broad language, the Convention applied
only to service of process in the technical sense . . . .”
(Jennifer O., at p. 549.) Noting that the father had
already made a general appearance in the case,
Jennifer O. concluded that, notwithstanding the
statutory language, “[s]ervice of notice on appellant of
the six-month review hearing by first-class mail fully
complied with California law . . . .” (Id. at p. 550; see
Kern County Dept. of Human Services v. Superior Court
(2010) 187 Cal.App.4th 302, 308-311 (Kern County).)
Our conclusions as to California law are narrow.
When parties agree to California arbitration, they
consent to submit to the personal jurisdiction of
California courts to enforce the agreement and any
judgment under section 1293. When the agreement also
specifies the manner in which the parties “shall be
served,” consistent with section 1290.4, subdivision (a),
that agreement supplants statutory service
requirements and constitutes a waiver of formal service
in favor of the agreed-upon method of notification. If an
arbitration agreement fails to specify a method of
service, the statutory service requirements of section
1290.4, subdivisions (b) or (c) would apply, and those
statutory requirements would constitute formal service

App. 24
of process. We express no view with respect to service
of process in other contexts.
E. The Hague Service Convention Does Not Apply
As the high court clarified, “[t]he only transmittal to
which the Convention applies is a transmittal abroad
that is required as a necessary part of service.”
(Volkswagenwerk, supra, 486 U.S. at p. 707.) Whether
transmittal abroad is required as a necessary part of
service depends on state law. Because the parties
agreed to waive formal service of process under
California law in favor of informal notification, “this
case does not present an occasion to transmit a judicial
document for service abroad within the meaning of
Article 1” of the Hague Service Convention. (Id. at pp.
707-708; see Kern County, supra, 187 Cal.App.4th at
pp. 308-311; Jennifer O., supra, 184 Cal.App.4th at pp.
549-550.)
Contrary to SinoType’s arguments, this conclusion
does not authorize circumventing the Hague
Convention where the Convention would otherwise
apply. We merely recognize that this case falls “outside
the scope of its mandatory application,” as the
Convention has been interpreted in Volkswagenwerk.
(Volkswagenwerk, supra, 486 U.S. at p. 706.)
SinoType’s arguments are similar to the arguments for
broader mandatory application of the Convention made
in Volkswagenwerk. The high court rejected those
arguments, as do we. (See id. at pp. 702–705.)
Holding that the Convention does not apply when
parties have agreed to waive formal service of process
in favor of a specified type of notification serves to

App. 25
promote certainty and give effect to the parties’ express
intentions. Conversely, to apply the Convention under
such circumstances would sow confusion and encourage
gamesmanship and sharp practices. As one court
observed, “precluding a contractual waiver of the
service provisions of the Hague Convention would allow
people to unilaterally negate their clear and
unambiguous written waivers of service by the simple
expedient of leaving the country.” (Alfred E. Mann
Living Trust v. ETIRC Aviation S.A.R.L. (N.Y.App.Div.
2010) 78 A.D.3d 137, 141; see Masimo Corp. v. Mindray
DS USA Inc. (C.D.Cal. Mar. 18, 2013, No. SACV 1202206- CJC(JPRx)) 2013 U.S.Dist.LEXIS 197706, at
pp. *13-14.) Nothing in the language or history of the
Convention suggests any intent for the treaty to be
abused in such a manner.
Likewise, our conclusion promotes California’s
“long-established and well-settled policy favoring
arbitration as a speedy and inexpensive means of
settling disputes. [Citation.] This policy is reflected in
the comprehensive statutory scheme set out in the
California Arbitration Act. (§ 1280 et seq.) The purpose
of the act is to promote contractual arbitration, in
accordance with this policy, as a more expeditious and
less expensive means of resolving disputes than by
litigation in court. [Citation.] ‘Typically, those who
enter into arbitration agreements expect that their
dispute will be resolved without necessity for any
contact with the courts.’ “ (Hightower v. Superior Court
(2001) 86 Cal.App.4th 1415, 1431; see Mercury Ins.
Group v. Superior Court (1998) 19 Cal.4th 332, 342.)
Requiring formal service abroad under California law
where sophisticated business entities have agreed to

App. 26
arbitration and a specified method of notification and
document delivery would undermine the benefits
arbitration provides. Uncertainty with respect to
service would require court intervention to resolve,
increase the time and cost of dispute resolution, and
potentially call into question long-final arbitration
awards. Such a result appears contrary to the
Legislature’s attempts to position California as a center
for international commercial arbitration. (See Credit
Lyonnais Bank Nederland, N.V. v. Manatt, Phelps,
Rothenberg & Tunney (1988) 202 Cal.App.3d 1424,
1434.)
III. DISPOSITION
The judgment of the Court of Appeal is reversed.
The matter is remanded for the resolution of
unadjudicated issues.
CORRIGAN, J.
We Concur:
CANTIL-SAKAUYE, C.J.
CHIN, J.
LIU, J.
CUÉLLAR, J.
KRUGER, J.
GROBAN, J.

App. 27
_____________
APPENDIX B
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE
Case No. B272170
(LOS ANGELES COUNTY SUPERIOR COURT
NO. BS149995)
[Filed: June 1, 2018]
___________________________________________
ROCKEFELLER TECHNOLOGY
)
INVESTMENTS (ASIA) VII,
)
Plaintiff and Respondent,
)
v.
)
CHANGZHOU SINOTYPE
)
TECHNOLOGY CO., LTD.,
)
Defendant and Appellant.
)
__________________________________________ )
APPEAL from an order of the Superior Court of Los
Angeles County, Randolph Hammock, Judge. Reversed
and remanded with directions.
Law Offices of Steve Qi and Associates, Steve Qi
and May T. To; Law Offices of Steven L. Sugars and
Steven L. Sugars for Defendant and Appellant.

App. 28
Paul Hastings, Thomas P. O’Brien, Katherine F.
Murray, and Nicole D. Lueddeke for Plaintiff and
Respondent.
_____________________________
This appeal concerns an aborted international
business deal between Changzhou SinoType
Technology Company, Ltd. (SinoType), a Chinese
company, and Rockefeller Technology Investments
(Asia) VII (Rockefeller Asia), an American investment
partnership. When the relationship between the two
entities soured, Rockefeller Asia pursued contractual
arbitration against SinoType in Los Angeles. SinoType
did not appear or participate in the arbitration
proceeding, and the arbitrator entered a default award
in excess of $414 million against it. The award was
confirmed and judgment entered, again at a proceeding
in which SinoType did not participate.
Approximately 15 months later, SinoType moved to
set aside the judgment on the grounds that it had never
entered into a binding contract with Rockefeller Asia,
had not agreed to contractual arbitration, and had not
been served with the summons and petition to confirm
the arbitration award in the manner required by the
Convention on the Service Abroad of Judicial and
Extrajudicial Documents in Civil or Commercial
Matters, Nov. 15, 1965, 20 U.S.T. 361, T.I.A.S. No.
6638 (hereafter, Hague Service Convention or
Convention). The trial court acknowledged that the
service of the summons and petition had not complied
with the Hague Service Convention, but concluded that
the parties had privately agreed to accept service by
mail. The court therefore denied the motion to set aside
the judgment.

App. 29
We reverse. As we discuss, the Hague Service
Convention does not permit Chinese citizens to be
served by mail, nor does it allow parties to set their
own terms of service by contract. SinoType therefore
was never validly served with process. As a result, “no
personal jurisdiction by the court [was] obtained and
the resulting judgment [is] void as violating
fundamental due process.” (County of San Diego v.
Gorham (2010) 186 Cal.App.4th 1215, 1227.) The trial
court therefore erred in denying the motion to set aside
the judgment.
FACTUAL AND PROCEDURAL BACKGROUND
A. The Parties and the MOU
SinoType is a Chinese company headquartered in
Changzhou, China that develops and licenses Chinese
fonts. Kejian (Curt) Huang (hereafter, Curt)1, a citizen
and resident of China, is SinoType’s chairman and
general manager.
Rockefeller Asia is an American investment
partnership headquartered in New York. Faye Huang
(hereafter, Faye) is Rockefeller Asia’s president.
In 2007 and 2008, Curt and Faye met several times
in Los Angeles to discuss forming a new company to
market international fonts. On February 18, 2008, they
signed a four page Memorandum of Understanding
(MOU), the legal significance of which is disputed. The

1

Because two principals share a last name (although they are not
related to one another), for clarity we refer to them by their first
names.

App. 30
MOU stated that the parties intended to form a new
company, known as World Wide Type (WWT), which
would be organized in California and have its principal
offices in the Silicon Valley. SinoType would receive an
87.5 percent interest in WWT “and shall contribute
100% of its interests in the companies comprising Party
A, i.e., Changzhou SinoType Technology.” Rockefeller
Asia would receive a 12.5 percent interest in WWT
“and shall contribute 100% of its 4 interests in the
companies comprising Party B, i.e., Rockefeller
Technology Investments (Asia) VII.”
The MOU provided that “[t]he parties shall proceed
with all deliberate speed, within 90 days if possible, to
draft and to all execute long form agreements carrying
forth the agreements made in this Agreement, together
with any and all documents in furtherance of the
agreements.” It also provided, however, that “[u]pon
execution by the parties, this Agreement shall be in full
force and effect and shall constitute the full
understanding of the Parties that shall not be modified
by any other agreements, oral or written.”
The MOU contained several provisions governing
potential disputes between the parties, as follows:
“6.
The Parties shall provide notice in the
English language to each other at the addresses set
forth in the Agreement via Federal Express or similar
courier, with copies via facsimile or email, and shall be
deemed received 3 business days after deposit with the
courier.
“7.
The Parties hereby submit to the jurisdiction
of the Federal and State courts in California and

App. 31
consent to service of process in accord with the notice
provisions above.
“8.
In the event of any disputes arising between
the Parties to this Agreement, either Party may submit
the dispute to the Judicial Arbitration & Mediation
Service in Los Angeles for exclusive and final
resolution pursuant to according to [sic] its streamlined
procedures before a single arbitrator . . . . Disputes
shall include failure of the Parties to come to
Agreement as required by this Agreement in a timely
fashion.”
B. The 2013 Arbitration
The relationship between the parties soured, and in
February 2012, Rockefeller Asia filed a demand for
arbitration with the Judicial Arbitration & Mediation
Service (JAMS) in Los Angeles.2 SinoType did not
appear at the arbitration, which proceeded in its
absence.
The arbitrator issued a final award on November 6,
2013.3 He found as follows:

2

Rockefeller Asia contends the demand for arbitration was
properly served in accordance with the Convention on the
Recognition and Enforcement of Foreign Arbitral Awards of June
10, 1958, codified as title 9 of the United States Code, sections 201
et seq. However, the propriety of the service of the arbitration
demand is not before us, and thus we do not reach the issue.

3

The award stated that because SinoType had not appeared, the
case proceeded under Article 27 of the JAMS International Rules,
which authorizes an arbitrator to proceed by default where one
party has failed to appear.

App. 32
Rockefeller Asia is a special-purpose entity
organized to provide capital to support technology
companies in Asia. Its partners include Rockefeller
Fund Management Co., LLC.
In February 2008, SinoType and Rockefeller Asia
entered into a MOU in which they agreed to form a
new company (WWT). Each party was to contribute its
entire interest in its business to WWT. In return,
SinoType was to receive an 87.5 percent interest, and
Rockefeller Asia was to receive a 12.5 percent interest,
in WWT. In 2008, Rockefeller Asia was funded with
stock worth $9.65 million.
In 2010, the parties sought additional investors to
buy a 10 percent interest in WWT. The highest offer,
obtained in May 2010, was for $60 million. After
receiving this offer, SinoType insisted that Rockefeller
Asia agree to a reduction of its interest. When
Rockefeller Asia refused, SinoType unilaterally
terminated the MOU.
Rockefeller Asia’s damages expert opined that
Rockefeller Asia’s damages included three components:
loss of its 12.5 percent interest in WWT; loss of its
control premium, which the expert valued at 10 percent
of WWT’s total value; and loss of its anti-dilution
rights, which the expert valued at 6.25 percent of
WWT’s total value. Thus, Rockefeller Asia’s damages
were equal to 28.75 percent (12.5% + 10% + 6.25% =
28.75%) of WWT’s value. The expert opined that
WWT’s value at the time SinoType terminated the
MOU was $600 million, and therefore Rockefeller
Asia’s damages at termination were approximately
$172 million ($600,000,000 x .2875 = $172,500,000).

App. 33
However, the expert opined that Rockefeller’s damages
should be valued at the time of the arbitration, not the
time of the termination. He estimated SinoType’s value
at the time of arbitration using “the ‘wave’ method . . .
which assumes that [the company’s] value has grown
over the same interval at the same rate as other firms
‘riding the same economic wave.’ “ The expert selected
Apple Corporation as the “comparator firm,” and
estimated SinoType’s current value by assuming a 240
percent increase between July 2010 and February
2012—i.e., the same increase that Apple experienced
during a comparable period. The expert thus estimated
Rockefeller Asia’s damages to be $414 million, which
was “28.5% of the estimated total value of [SinoType]
of $1.440 billion, using the wave method.”
The Arbitrator “accept[ed] the evidence presented
through [Rockefeller Asia’s expert] concerning the
percentage values of the control premium and the antidilution clause,” and also “adopt[ed] [Rockefeller Asia’s]
proposal to set the date of valuation at February 2012.”
Based on the foregoing, the arbitrator awarded
Rockefeller Asia $414,601,200.
C. Order Confirming the Arbitration Award
Rockefeller Asia filed a petition to confirm the
arbitration award. Subsequently, it filed a proof of
service of summons, which declared that it had served
SinoType in China by Federal Express on August 8,
2014, in accordance with the parties’ arbitration
agreement.

App. 34
Following a hearing at which SinoType did not
appear, on October 23, 2014, the trial court confirmed
the arbitration award and entered judgment for
Rockefeller Asia in the amount of $414,601,200, plus
interest of 10 percent from November 6, 2013.
D. SinoType’s Motion to Set Aside the Judgment
On January 29, 2016, SinoType filed a motion to set
aside the judgment and to quash service of the
summons. The motion asserted that the order
confirming the arbitration award and resulting
judgment were void because SinoType had not been
validly served with the summons and petition to
confirm. SinoType explained that because it is a
Chinese company, Rockefeller Asia was required to
serve the summons and petition pursuant to the Hague
Service Convention. Rockefeller Asia did not do so.
Instead, it served SinoType by Federal Express, which
is not a valid method of service on Chinese citizens
under the Convention. Moreover, the parties had not
intended the MOU to be a binding agreement, and thus
the MOU’s provision for mail service was not
enforceable.
In support of its motion, SinoType submitted the
declaration of Curt Huang, which stated in relevant
part as follows:
Curt met Faye in 2007. Faye introduced herself as
the CEO of Rockefeller Pacific Ventures Company and
offered to introduce Curt to Nicholas Rockefeller
(Rockefeller), who Faye said might be interested in
investing in a project. Curt met with Rockefeller in
July 2007 and discussed forming a new company that

App. 35
would develop software with fonts in many different
alphabets and languages. Rockefeller expressed
interest in the project. However, “[t]he name of the
Rockefeller entity which Nicholas Rockefeller proposed
to do business with SinoType changed on several
occasions” and Curt “grew increasingly uncomfortable
about the lack of clarity as to which company Nicholas
Rockefeller proposed to do business with SinoType.”
The parties met several more times in 2007 and
2008, but they did not make significant progress in
consummating a deal. In February 2008, Faye offered
to prepare a document referred to in Chinese as a “bei
wang lu.” According to Curt, a “bei wang lu” is a
memorandum of understanding between parties that
records the current state of negotiations; it “does not
necessarily reflect terms to which the parties have
agreed” and “is often used where there has been no real
progress in a business meeting to memorialize the
discussion so that the parties can pick up on the
negotiations at a later meeting.” The signing of a “bei
wang lu” “does not create a binding contract.” In
contrast, Curt said, there are three other kinds of
Chinese agreements: a “yi xiang shu” is “a letter of
intent and reflects the intentions of the parties to enter
into an agreement before a formal contract exists;” a
“xie yi” is an agreement “which is usually, but not
always legally binding;” and a “he tong” is “a formal
contract, which is legally enforceable.”
In February 2008, Faye presented Curt with a draft
“bei wang lu.” Curt said he had only about 10 minutes
to review the document, but he told Faye that many of
the proposed terms were unacceptable, including the

App. 36
designation of “Party B” as Rockefeller Asia (an entity
Curt said he had never heard of), the anti-dilution
protections for Rockefeller Asia, and the failure to
indicate the amount of Rockefeller Asia’s proposed
contribution to the project. Curt was reluctant to sign
the document, but was convinced to do so by Faye’s
assurances that the terms would be modified in a longform agreement (or “xie yi”) that would be drafted
within 90 days. Curt ultimately signed the document
“because I knew it was not a binding document and I
wanted to see progress on the deal. I felt the MOU
would push Rockefeller to draft the long form
agreement within 90 days.”
When he signed the MOU, Curt “had no intention to
waive SinoType’s right to service of process or [to]
agree[] to arbitration. Because I only had ten minutes
to review the MOU, I did not even know that it
contained a statement saying SinoType would agree to
alternate service. I believed that the ‘bei wang lu’ had
no legal implications and all of the terms would be
negotiated and modified later in the actual contract.”
In February 2010, Faye and Rockefeller told Curt
they wanted a 12.5 percent equity in the new venture.
Curt said he would be willing to give them equity on a
commission basis once they raised capital, but he would
not consider giving them any equity in the new
company before they had raised funds.
In June 2010, Faye emailed Curt a draft Stock
Purchase Agreement and other ancillary agreements.
The draft “was not 10 something to which [Curt] could
or would ever agree.” Curt told Faye he would not sign

App. 37
the draft documents. Communications between the
parties ended in March 2011.
Curt received a letter at the end of January 2012
that referenced arbitration. He did not believe he had
to respond to the letter because it was not a court
document. He received subsequent FedEx packages
and emails from Rockefeller, but he did not open them.
In March 2015, Curt heard from a client that
Rockefeller Asia was alleging that SinoType owed it
money. He then sought the advice of counsel, who
opened the FedEx packages. That was when Curt
learned an arbitrator had awarded Rockefeller Asia
more than $414 million, which Curt said was more
than 70 times SinoType’s total revenue for the entire
period from 2009 to 2013.
Rockefeller Asia did not transfer stock to SinoType,
nor did it ever propose to do so.
E. Rockefeller Asia’s Opposition to Motion to Set
Aside the Judgment
Rockefeller Asia opposed SinoType’s motion to set
aside the judgment, urging that the motion was
untimely; the 2008 MOU was valid and enforceable;
and the summons and petition to confirm the
arbitration award had been properly served. In support
of its opposition, Rockefeller Asia submitted Faye
Huang’s declaration, which stated in relevant part as
follows:
By the end of 2007, Rockefeller Asia and SinoType
had decided to enter into a formal arrangement. On
February 18, 2008, Faye and Curt executed the MOU.

App. 38
“At no point did I represent to Curt in either the
English or the Mandarin Chinese language that the
2008 Agreement would not be considered an
enforceable agreement . . . . There would be no purpose
for Curt and me to sign the 2008 Agreement if that
document was to be considered a nullity. At no point
did Curt state that he disagreed with a single term in
the [MOU] or inform me that the . . . provisions were
not exactly as we had agreed.”
Upon the signing of the MOU, “an Assignment of
Partnership Interests was executed by the Rockefeller
Parties pursuant to which they transferred their
partnership interest, which had a value of $9.65
million, to SinoType per the terms of the [MOU].”
Faye declared that “Curt and I intended the [MOU]
to be effective and binding immediately, as its term
provided that it could be modified only in a writing
signed by both parties. However, we also anticipated
that, while the short-form agreement would suffice for
our mutual needs, a long-form agreement that would
satisfy the very strenuous and impersonal
requirements of the international investment
community would be necessary to attract additional
institutional investors in the future. Therefore, the
[MOU] called for the parties to try to have the longform agreement available ‘with all deliberate speed,’
within 90 days if possible.” However, the 90-day
guideline for preparing the long-form documents
“proved impossible.” Due to the 2008 recession, no
third-party financing was on the horizon, and thus “the
parties continued to operate under the binding 2008
Agreement.” Throughout this time, Rockefeller Asia

App. 39
“continued to perform and to supply tangible and
intangible resources to SinoType.”
According to to Faye’s declaration, SinoType
survived the economic downturn in large part because
of Rockefeller Asia’s efforts, and by 2009 SinoType’s
internal evaluation showed that its then-current value
approached $500 million and would 12 increase in five
years to almost $2 billion. Ultimately, however, the
relationship between the companies began to
deteriorate, and in July 2010, SinoType informed
Rockefeller Asia that it had abrogated the MOU and
Rockefeller Asia no longer owned a 12.5 percent
interest in SinoType. Further, Curt told Faye that as a
Chinese company, SinoType was immune to American
legal remedies and would refuse to participate in any
legal process in the United States.
F. Order Denying Motion to Set Aside Judgment
On April 15, 2016, the trial court denied the motion
to set aside the judgment. The court found that service
by Federal Express was permitted by the MOU, which
the arbitrator had found to be a binding contract.
Further, although the court found that Rockefeller Asia
had not properly served SinoType under the Hague
Service Convention, it concluded that the parties were
permitted to contract around the Convention’s service
requirements. It explained: “To allow parties to enter
into a contract with one another and then proceed to
unilaterally disregard provisions out of convenience,
like the one at issue here, would allow parties to simply
return to their respective countries in order to avoid
any contractual obligations. As aptly noted by
[Rockefeller Asia] in its opposition, this would

App. 40
essentially result in anarchy and turn the entire
international arbitration law on its head. . . .
Furthermore, this court cannot find (and [SinoType]
has not provided) any case law that would indicate
parties are not permitted to contractually select
alternative means of service and thus they are not able
to waive the service provisions within the Hague
Convention.”
Finally, the court said, “assuming for the sake of
argument that somehow [Rockefeller Asia] was
actually required to serve 13 the Summons and
Petition in this action upon [SinoType] in the manner
suggested by [SinoType] (to wit, vis-a-vis the protocols
established by the Chinese government), once
[SinoType] was ‘served’ with the Summons and Petition
in the manner which actually occurred in this case it
had an obligation do something – to do exactly what it
is doing now – to specially appear and to file a motion
to quash. This is what is called acting with
‘diligence.’ . . . [¶] The law is well settled that if a party
is seeking to obtain relief from this court’s equitable
powers, it must act with reasonable diligence.
[Citations.] Thus, to the extent that [SinoType] is also
seeking to have this court exercise its broad equitable
powers to grant the requested relief, under the totality
of the circumstances it respectfully declines to grant
such equitable relief due to the lack of reasonable
diligence by the defendant in seeking relief . . . .”

App. 41
SinoType timely appealed from the order denying
the motion to set aside the judgment.4
DISCUSSION
SinoType contends the trial court was required to
set aside the judgment because Rockefeller Asia never
properly served it with the summons and petition to
confirm the arbitration award. Specifically, SinoType
urges that: (1) mail service in China is not authorized
by the Hague Service Convention; (2) the Convention’s
service provisions were not superseded by the MOU;
and (3) Rockefeller Asia’s failure to properly serve the
summons and petition rendered the judgment void and,
thus, subject to being set aside at any time.
Rockefeller Asia agrees that the Convention does
not permit mail service in China, but it urges that
parties may by contract set their own terms of service.

4

SinoType has filed a request for judicial notice in connection with
this appeal. Such notice is available in the trial court “and,
independently, in the Court of Appeal (Evid. Code, § 459) which is
not bound by the trial court’s determination.” (Volkswagenwerk
Aktiengesellschaft v. Superior Court (1981) 123 Cal.App.3d 840,
852, superseded on other grounds as stated in American Home
Assurance Co. v. Societe Commerciale Toutelectric (2002) 104
Cal.App.4th 406, 409.) We grant the request as to the Hague
Service Convention and articles 260 and 261 of the Civil Procedure
Law of the People’s Republic of China (exhibits 3, 4, and 5), and
otherwise deny it. (See Noergaard v. Noergaard (2015) 244
Cal.App.4th 76, 81, fn. 1 [judicial notice of Hague Convention];
Societe Civile Succession Richard Guino v. Redstar Corp. (2007)
153 Cal.App.4th 697, 701, superseded by statute on another
ground as stated in Hyundai Securities Co. Ltd. v. Ik Chi Lee
(2013) 215 Cal.App.4th 682, 693 [judicial notice of law of a foreign
nation].)

App. 42
Rockefeller Asia further urges that it served the
summons and petition on SinoType in the manner
provided by the MOU; and, in any event, SinoType’s
motion to set aside the judgment was untimely.
As we now discuss, the Hague Service Convention
does not permit parties to set their own terms of
service by contract. Instead, it requires service on
foreign parties to be carried out as specified in the
Convention by the receiving country. China does not
permit its citizens to be served by mail, and thus
SinoType was not validly served with the summons and
petition. In the absence of proper service, the trial court
never obtained personal jurisdiction over SinoType,
and thus the judgment against SinoType necessarily
was void. Because a void judgment can be set aside at
any time, SinoType’s motion to set aside the 15
judgment necessarily was timely. The trial court
therefore erred in denying SinoType’s motion to set
aside the judgment.
I.
Standard of Review
We review the order denying SinoType’s motion to
set aside the judgment for an abuse of discretion. (J.M.
v. G.H. (2014) 228 Cal.App.4th 925, 940; County of San
Diego v. Gorham (2010) 186 Cal.App.4th 1215, 1225
(Gorham).) “ ‘ “The abuse of discretion standard . . .
measures whether, given the established evidence, the
act of the lower tribunal falls within the permissible
range of options set by the legal criteria.” ‘ [Citation.]
The scope of the trial court’s discretion is limited by
law governing the subject of the action taken.

App. 43
[Citation.] An action that transgresses the bounds of
the applicable legal principles is deemed an abuse of
discretion. [Citation.] In applying the abuse of
discretion standard, we determine whether the trial
court’s factual findings are supported by substantial
evidence and independently review its legal
conclusions. [Citation.]” (In re Marriage of Drake (2015)
241 Cal.App.4th 934, 939–940.)
II.
Rockefeller Asia Did Not Properly Serve
SinoType with the Summons and Petition to
Confirm the Arbitration Award
A. The Hague Service Convention
The Hague Service Contention “is a multinational
treaty formed in 1965 to establish an ‘appropriate
means to ensure that judicial and extrajudicial
documents to be served abroad shall be brought to the
notice of the addressee in sufficient time.’ (Hague
Convention preamble, 20 U.S.T. 361, 362, T.I.A.S. No.
6638, reprinted in 28 U.S.C.A. Fed.R.Civ.P. 4, note, at
130 (West Supp. 16 1989).) The Hague Convention
provides specific procedures to accomplish service of
process. Authorized modes of service are service
through a central authority in each country; service
through diplomatic channels; and service by any
method permitted by the internal law of the country
where the service is made. (See [Hague Service
Convention], arts. 2–6, 8, 19; see also discussion in
Bankston v. Toyota Motor Corp. (8th Cir. 1989) 889
F.2d 172, 173.) Each signatory nation may ratify, or
object to, each of the articles of the [Hague Service

App. 44
Convention]. ([Hague Service Convention], art. 21.)”
(Honda Motor Co. v. Superior Court (1992) 10
Cal.App.4th 1043, 1045 (Honda Motor Co.).) Both the
United States and China are signatories (sometimes
referred to as “contracting States”) to the Hague
Service Convention. (Hague Conference on Private
International Law, 14: Convention of 15 November
1965 on the Service Abroad of Judicial and
Extrajudicial Documents in Civil or Commercial
Matters (Apr. 11, 2018) Status Table
<https://www.hcch.net/en/instruments/conventions/st
atus-table/? cid=17> [as of May 31, 2018].)
In the United States, state law generally governs
service of process in state court litigation. However, by
virtue of the Supremacy Clause, United States
Constitution, Article VI, the Convention preempts
inconsistent methods of service prescribed by state law
in all cases to which the Convention applies. (See
Volkswagenwerk Aktiengesellschaft v. Schlunk (1988)
486 U.S. 694, 699 [108 S.Ct. 2104, 100 L.Ed.2d 722]
(Volkswagenwerk).) Thus, although a summons issued
by a California state court generally must be served
pursuant to the Code of Civil Procedure (§§ 413.10 et
seq.), service in the present case was governed by the
Hague Service Convention, not the Code of Civil
Procedure. 17 (See Honda Motor Co., supra, 10
Cal.App.4th at p. 1049 [“the preemptive effect of the
Hague Convention as to service on foreign nationals is
beyond dispute”].)

App. 45
B. The Convention Does Not Permit Mail Service on
Citizens of Countries That, Like China, Have
Filed Objections to Article 10 of the Convention
Article 2 of the Convention provides that each
contracting state shall designate a “Central Authority”
that will receive requests for service from other
contracting states. (Hague Service Convention, supra,
20 U.S.T. at p. 362.) Article 5 provides that the Central
Authority of the state addressed “shall itself serve the
document or shall arrange to have it served by an
appropriate agency, either –
“(a) by a method prescribed by its internal law for
the service of documents in domestic actions upon
persons who are within its territory, or
“(b) by a particular method requested by the
applicant, unless such a method is incompatible with
the law of the State addressed.” (Hague Service
Convention, supra, 20 U.S.T. at pp. 362-363.)
Article 10 of the Convention provides for alternative
methods of service if permitted by the “State of
destination.” As relevant here, it says: “Provided the
State of destination does not object, the present
Convention shall not interfere with . . . the freedom to
send judicial documents, by postal channels, directly to
persons abroad.” (Hague Service Convention, supra, 20
U.S.T. at p. 363, italics added.)
China has filed a “reservation” to Article 10, which
states that it “oppose[s] the service of documents in the
territory of the People’s Republic of China by the
methods provided by Article 10 of the Convention.”
(Hague Conference on Private International Law,

App. 46
Declaration/Reservation/Notification <https://www.hc
ch.net/en/states/authorities/notifications/?csid=39 3&d
isp=resdn> [as of May 31, 2018].) <https://www.hcch.net
/en/states/authorities/notifications/?csid=39
3&disp=resdn> [as of May 31, 2018].) Accordingly,
foreign plaintiffs “cannot rely on Article 10’s allowance
for service via ‘postal channels’ because [China] is
among the countries who have formally objected to
such means of service, rendering Article 10
inapplicable.” (Prince v. Government of People’s
Republic of China (S.D.N.Y. Oct 25, 2017, No. 13-CV2106 (TPG)) 2017 WL 4861988, p. *6; see also Zhang v.
Baidu.com Inc. (S.D.N.Y. 2013) 932 F.Supp.2d 561, 567
[mail service of summons and complaint on Chinese
defendant did not constitute proper service: “[T]he
Hague Convention allows for service through ‘postal
channels,’ but only if ‘the State of destination does not
object.’ . . . China has objected.”]; and see Pats Aircraft,
LLC v. Vedder Munich GmbH (D. Del. 2016) 197
F.Supp.3d 663, 673 [“Germany . . . has specifically
objected to service by mail under the Hague
Convention. [Citation.] As such, service of process upon
a nonresident defendant in Germany must comply with
the other relevant service provisions of the Hague
Convention.”]; RSM Production Corp. v. Fridman
(S.D.N.Y May 24, 2007, No. 06 Civ. 11512 (DLC)) 2007
WL 1515068, p. *2 [“The Hague Service Convention . . .
prohibits service through certified international mail or
Federal Express International Priority mail on
individuals residing in the Russian Federation due to
that country’s objection to Article 10”]; Shenouda v.
Mehanna (D.N.J. 2001) 203 F.R.D. 166, 171 [“Article 10
permits parties to send judicial documents via postal
channels or through judicial officers in the receiving

App. 47
nation. [Citation.] This provision, however, is
inapplicable here because Egypt has objected to Article
10 in its 19 entirety.”]; Honda Motor Co., supra, 10
Cal.App.4th at p. 1049 [“Since the attempted mail
service on Honda was improper under the Hague
Convention, the trial court should have granted the
motion to quash service on defendant Honda.”].)
Accordingly, because China has objected to Article
10, Rockefeller Asia’s mail service of the summons and
petition on SinoType was not effective under the Hague
Service Convention.
C. Parties May Not Contract Around
Convention’s Service Requirements

the

Rockefeller Asia concedes that mail service on
Chinese citizens by foreign litigants is not permitted
under the Convention. It urges, however, that parties
can “contract around” the Convention’s service
requirements. For the reasons that follow, we do not
agree.
“In interpreting an international treaty, we are
mindful that it is ‘in the nature of a contract between
nations,’ [citation], to which ‘[g]eneral rules of
construction apply.’ [Citations.] We therefore begin
‘with the text of the treaty and the context in which the
written words are used.’ [Citation.] The treaty’s
history, ‘ “the negotiations, and the practical
construction adopted by the parties” ‘ may also be
relevant. [Citation.]” (Société Nat. Ind. Aéro. v. U.S.
Dist. Court (1987) 482 U.S. 522, 533–534 [107 S.Ct.
2542, 2550, 96 L.Ed.2d 461] (Société).)

App. 48
By its own terms, the Convention applies to “all
cases, in civil or commercial matters, where there is
occasion to transmit a judicial or extrajudicial
document for service abroad.” (Hague Service
Convention, supra, 20 U.S.T. at p. 362, italics added.)
This language “is mandatory.” (Volkswagenwerk,
supra, 486 U.S. 20 at p. 699, italics added; see also
Société, supra, 482 U.S. at p. 534, fn. 15 [same].)5
Further, the Convention emphasizes the right of
each contracting state—not the citizens of those
states—to determine how service shall be effected. For
example, Article 2 of the Convention provides that each
state shall organize a Central Authority “which will
undertake to receive requests for service coming from
other contracting States”; Article 5 provides that each
state shall effect service in the manner requested
“unless such a method is incompatible with the law of
the State addressed [i.e., the receiving state]”; and
Article 11 provides that the Convention “shall not
prevent two or more contracting States from agreeing
to permit . . . channels of transmission other than those

5

In contrast, the United States Supreme Court has held that the
Hague Convention on the Taking of Evidence Abroad in Civil or
Commercial Matters (Evidence Convention), 23 U.S.T. 2555,
T.I.A.S. No. 7444, which does not contain analogous mandatory
language, does not “purport to describe the procedures for all
permissible transnational discovery and exclude all other existing
practices.” (Société, supra, 482 U.S. at p. 534.) The court found the
Evidence Convention’s omission of mandatory language
“particularly significant in light of the same body’s use of
mandatory language in the preamble to the Hague Service
Convention, 20 U.S.T. 361, T.I.A.S. No. 6638.” (Id. at p. 534, fn.
15.)

App. 49
provided for in the preceding articles.” (Hague Service
Convention, supra, 20 U.S.T. at pp. 362-364, italics
added.) As relevant here, Article 261 of the Civil
Procedure Law of the People’s Republic of China (of
which we have taken judicial notice) provides that a
request for judicial assistance “shall be conducted
through channels stipulated to in the international
treaties concluded or acceded to by the People’s
Republic of China. . . .Except for the circumstances
specified in the preceding paragraph, no foreign agency
or individual may serve documents . . . within the
territory of the People’s Republic of China without the
consent of the in-charge authorities of the People’s
Republic of China.” Permitting private parties to avoid
a nation’s service requirements by contract is
inconsistent with Article 261, as well as with the
Convention’s stated intention to avoid infringing on the
“sovereignty or security” of member states. (See Hague
Service Convention, supra, 20 U.S.T. at p. 364.)
Finally, as we have said, the Convention expressly
allows each “State of destination” to decide whether to
permit mail service on its citizens by foreign
defendants. (See Hague Service Convention, supra, 20
U.S.T. at p. 363 [Convention does not prohibit mail
service “[p]rovided the State of destination does not
object”], italics added.) The Convention does not include
an analogous provision allowing private parties to
international contracts to agree to accept service by
mail.
Rockefeller Asia does not offer any “plausible
textual footing” (Water Splash, Inc. v. Menon (2017) __
U.S. __, __ [137 S.Ct. 1504, 1509–1510, 197 L.Ed.2d

App. 50
826]) for the proposition that parties may contract
around the Hague Service Convention, but instead
relies on two cases from other jurisdictions, neither of
which is persuasive. The first, Alfred E. Mann Living
Trust v. ETIRC Aviation S.A.R.L. (N.Y. App. 2010) 78
A.D.3d 137, 141, 910 N.Y.S. 2d 418 (Alfred E. Mann),
provides no textual analysis to support the New York
Court of Appeal’s conclusion that the requirements of
the Convention may be waived by contract; the court
simply says that it can see “no reason why” it should
reach 22 a contrary conclusion. The analysis of Masimo
Corp. v. Mindray DS USA Inc. (C.D. Cal., Mar. 18,
2013) 2013 WL 12131723 is equally cursory; the
district court stated: “The Court sees no reason why
parties may not waive by contract the service
requirements of the Hague Convention, especially
given that parties are generally free to agree to
alternative methods of service. [Defendant] provides no
authority to the contrary, and the Court’s position is in
accord with [Alfred E. Mann].” (Id. at p. 3.)6
Consistent with the Convention’s language, we
therefore conclude that parties may not agree by
contract to accept service of process in a manner not
permitted by the receiving country. Accordingly,
because service on SinoType was effected by
international mail, which is not a permitted form of

6

The two remaining cases on which Rockefeller Asia relies address
the Hague Convention on Taking of Evidence Abroad, not the
Hague Service Convention. (Image Linen Services, Inc. v. Ecolab,
Inc. (M.D. Fla., Mar. 10, 2011) 2011 WL 862226, pp. *4–5 & fn. 6;
Boss Mfg. Co. v. Hugo Boss AG (S.D.N.Y., Jan. 13, 1999) 1999 WL
20828, p. *1.)

App. 51
service on Chinese citizens under the Convention, we
conclude that SinoType was not validly served with the
summons and petition to confirm the arbitration
award.
III.
Because SinoType Was Not Properly Served
with the Summons and Petition, the Court Did
Not Acquire Jurisdiction Over SinoType, and
the Resulting Judgment Is Void
Having concluded that SinoType was not validly
served with the summons and petition, we now
consider the effect of the invalid service. SinoType
contends that because it was not properly served with
the summons and petition, the trial court did not
acquire jurisdiction over it, and the resulting judgment
thus is void. Rockefeller Asia disagrees, contending
that the judgment was valid because SinoType had
actual notice of the proceedings and did not timely
move to set aside the judgment. As we now discuss,
SinoType is correct.
A. A Judgment Obtained in the Absence of Proper
Service of Process Is Void
Compliance with the statutory procedures for
service of process “ ‘ “is essential to establish personal
jurisdiction.” ‘ [Citation.]” (Renoir v. Redstar Corp.
(2004) 123 Cal.App.4th 1145, 1152 (Renoir).) Thus, in
Honda Motor Co., supra, 10 Cal.App.4th 1043, the
court held that service on a Japanese corporation that
did not comply with the Hague Service Convention had
to be quashed even though the Japanese defendant had
actually received the summons and complaint. The

App. 52
court explained: “[Plaintiff’s] arguments share a
common fallacy; they assume that in California, actual
notice of the documents or receipt of them will cure a
defective service. That may be true in some
jurisdictions, but California is a jurisdiction where the
original service of process, which confers jurisdiction,
must conform to statutory requirements or all that
follows is void. [Citations.] . . . [¶] . . . [¶] Plaintiff
argues that it is ridiculous, wasteful and time
consuming to reverse the trial court just to force
plaintiff to go through the motions of a service under
the convention, when there is no question but that
Honda has notice of the action, its attorneys stand
ready to defend it, and no practical aim can be
accomplished by quashing the service. However,
plaintiff cites no authority permitting a California
court to authorize an action to go forward upon an
invalid service of process. The fact that the person
served ‘got the word’ is irrelevant. [Citations.] ‘Mere
knowledge of the action is not a substitute for service,
nor does it raise any estoppel to contest the validity of
service.’ [Citation.] ‘[O]ur adherence to the law is
required if we are ever to instill respect for it.’
[Citation.] The Abrams court7 felt it could not rewrite
the work of the California Legislature; how much less
are we able to rewrite a federal treaty.” (Honda Motor,
supra, 10 Cal.App.4th at pp. 1048–1049, italics added.)

7

In re Abrams (1980) 108 Cal.App.3d 685, 695 [annulling contempt
judgment against witness because witness subpoena had not been
personally served as required by statute; “the process was not
served in the manner required by law and defendant may not be
criminally punished for failure to obey the subpoena.”].)

App. 53
Where the defendant establishes that he or she has
not been served as mandated by the statutory scheme,
“no personal jurisdiction by the court will have been
obtained and the resulting judgment will be void as
violating fundamental due process. (See Peralta [v.
Heights Medical Center, Inc. (1988)] 485 U.S. [80,] 84.)”
(Gorham, supra, 186 Cal.App.4th 1215, 1227, italics
added [reversing order denying motion to set aside a
default judgment because plaintiff had not been
properly served with the summons and complaint]; see
also Renoir, supra, 123 Cal.App.4th at p. 1154
[“Because no summons was served on any of the
defendants and the defendants did not generally
appear in the proceeding, the trial court had no
jurisdiction over them. Therefore, the California
judgment was void, as is the order denying the motion
to vacate the California judgment.”]; Lee v. An (1008)
168 Cal.App.4th 558, 564 [“[I]f a defendant is not
validly served with a summons and complaint, the
court lacks personal jurisdiction and a . . . judgment in
such action is subject to being set aside as void.”].)8
As we have discussed, SinoType was not served
with the summons and petition in the manner required
by the Hague Service Convention. Accordingly, the
court did not acquire personal jurisdiction over
SinoType, and the resulting judgment was void.
8

“A lack of fundamental jurisdiction is ‘ “ ‘an entire absence of
power to hear or determine the case, an absence of authority over
the subject matter or the parties.’ [Citation.]. . .” [¶] . . .
“[F]undamental jurisdiction cannot be conferred by waiver,
estoppel, or consent. Rather, an act beyond a court’s jurisdiction in
the fundamental sense is null and void” ab initio.’ “ (Kabran v.
Sharp Memorial Hospital (2017) 2 Cal.5th 330, 339.)

App. 54
B. SinoType’s Motion to Set Aside the Judgment
Was Timely
The final issue before us is whether the trial court
abused its discretion by failing to set aside the void
judgment. SinoType contends that a void judgment is
“void ab initio . . . a nullity” that may be set aside at
any time. Rockefeller Asia disagrees, contending that
“ ‘[o]nce six months have elapsed since the entry of
judgment, a trial court may grant a motion to set aside
that judgment as void only if the judgment was void on
its face.’ “
There is a wealth of California authority for the
proposition that a void judgment is vulnerable to direct
or collateral attack “ ‘ “at any time.” ‘ “ (Strathvale
Holdings v. E.B.H. (2005) 126 Cal.App.4th 1241, 1249,
italics added, quoting People v. American Contractors
Indemnity Co. (2004) 33 Cal.4th 653, 660.) For
example, in Gorham, supra, 186 Cal.App.4th 1215, the
Court of Appeal held that the failure to vacate a void
judgment entered nearly 10 years earlier was an abuse
of discretion. The court explained: “[W]here it is shown
that there has been a complete failure of service of
process upon a defendant, he generally has no duty to
take affirmative action to preserve his right to
challenge the judgment or order even if he later obtains
actual knowledge of it because ‘[w]hat is initially void
is ever void and life may not be breathed into it by
lapse of time.’ [Citation.] Consequently under such
circumstances, ‘neither laches nor the ordinary statutes
of limitation may be invoked as a defense’ against an
action or proceeding to vacate such a judgment or
order. [Citation.]” (Id. at p. 1229.)

App. 55
In so concluding, the court specifically rejected the
proposition that the judgment would be set aside only
if void “on its face”: “Although courts have often also
distinguished between a judgment void on its face, i.e.,
when the defects appear without going outside the
record or judgment roll, versus a judgment shown by
extrinsic evidence to be invalid for lack of jurisdiction,
the latter is still a void judgment with all the same
attributes of a judgment void on its face. [Citation.]
‘Whether the want of jurisdiction appears on the face of
the judgment or is shown by evidence aliunde, in either
case the judgment is for all purposes a nullity—past,
present and future. [Citation.] “. . . All acts performed
under it and all claims flowing out of it are void . . . .
No action upon the part of the plaintiff, no inaction
upon the part of the defendant, no resulting equity in
the hands of third persons, no power residing in any
legislative or other department of the government, can
invest it with any of the elements of power or of
vitality.” [Citation.]’ [Citation.] In such cases, the
judgment or order is wholly void, although described as
‘voidable’ because court action is required to determine
the voidness as a matter of law, and is distinguishable
from those judgments merely voidable due to being in
excess of the court’s jurisdiction. [Citation.]
Consequently, once proof is made that the judgment is
void based on extrinsic evidence, the judgment is said to
be equally ineffective and unenforceable as if the
judgment were void on its face because it violates
constitutional due process. (See Peralta v. Heights

App. 56
Medical Center, supra, 485 U.S. [at p.] 84.)” (Gorham,
supra, 186 Cal.App.4th at p. 1226, italics added.)9
Similarly, the Court of Appeal in Falahati v. Kondo
(2005) 127 Cal.App.4th 823, held that the trial court
erred in failing to grant a motion to set aside a default
judgment filed 10 months after entry of judgment. It
explained that although a motion for relief from a
default judgment under Code of Civil Procedure
sections 473, subdivision (b), or 473.5, subdivision (a),
usually must be filed within six months from entry of
the judgment, “[a] void judgment can be attacked at
any time by a motion under 28 Code of Civil Procedure
section 473, subdivision (d).” (Id. at p. 830, italics
added; see also Deutsche Bank National Trust
Company v. Pyle (2017) 13 Cal.App.5th 513, 526; Lee v.
An, supra, 168 Cal.App.4th at pp. 563–564.)
The present case is analogous. Because SinoType
was never properly served with the summons and
petition, the trial court never obtained personal
jurisdiction over it. The resulting judgment—whether
9

The Gorham court also rejected the plaintiff’s contention that the
trial court was not required to vacate the judgment because the
defendant had actual knowledge of it: “Knowledge by a defendant
of an action will not satisfy the requirement of adequate service of
a summons and complaint. [Citations.] . . . [I]t has been said that
a judgment of a court lacking such personal jurisdiction is a
violation of due process (Burnham v. Superior Court of Cal., Marin
County (1990) 495 U.S. 604, 609), and that ‘a default judgment
entered against a defendant who was not served with a summons
in the manner prescribed by statute [to establish personal
jurisdiction] is void.’ (Dill v. Berquist Construction Co. (1994) 24
Cal.App.4th 1426, 1444.)” (Gorham, supra, 186 Cal.App.4th at pp.
1226–1227, 1229.)

App. 57
or not void on its face—”was. . .therefore void, not
merely voidable, as violating fundamental due process.”
(Gorham, supra, 186 Cal.App.4th at p. 1230.) It
therefore could be set aside “at any time” (People v.
American Contractors Indemnity Co., supra, 33 Cal.4th
at p. 660)—including, as in this case, 15 months after
entry of the judgment.10
DISPOSITION
The order denying the motion to set aside the
judgment is reversed. The case is remanded to the trial
court with directions to vacate the judgment, vacate
the order granting the petition to confirm, and quash
service of the summons and petition. Appellant’s
motion for judicial notice, filed January 2, 2018, is
granted as to exhibits 3, 4, and 5, and is otherwise
denied. Appellant is awarded its appellate costs.
CERTIFIED FOR PUBLICATION
We concur:
EGERTON, J.

EDMON, P. J.
DHANIDINA,J.*

10

Because we have found the judgment to be void, we do not
address SinoType’s contention that there was no binding
arbitration agreement between the parties. If the parties wish to
do so, they may raise this issue with the trial court in petitions to
confirm/vacate the arbitration award after properly filing and
serving such petitions.
*

Judge of the Los Angeles Superior Court, assigned by the Chief
Justice pursuant to article VI, section 6 of the California
Constitution.

App. 58

APPENDIX C
SUPERIOR COURT, STATE OF CALIFORNIA
COUNTY OF LOS ANGELES
Case No. BS149995
[Filed: April 15, 2016]
__________________________________________
ROCKEFELLER TECH. INC.
)
(ASIA) VII,
)
Plaintiff,
)
v.
)
CHANGZHOU SINOTYPE TECH.
)
CO., LTD.,
)
Defendant.
)
__________________________________________)
ORDER DENYING MOTION TO QUASH AND
SET ASIDE JUDGMENT
[Assigned for all purposes
to Judge Randolph M. Hammock]
It is a Maxim of Jurisprudence that “[t]he law helps
the vigilant, before those who sleep on their rights.”
Civil Code §3527. In this case, the defendant not only
slept on its rights, it was in a self-induced coma. As will
be discusses infra, since the defendant received actual
notice back in early 2012 of the plaintiff’s demand and
notice of intent to seek binding arbitration, none of the
defendant’s subsequent actions (or inactions) were
reasonable or diligent, and as such, the defendant is

App. 59
not entitled to the relief it is now belatedly seeking. It
is simply too little and too late.
Interestingly enough, the actual material facts for
purposes of the motion for relief are undisputed. To
wit, in February of 2008, the parties signed and
entered into a written “Memorandum of
Understanding.” This agreement essentially stated, in
part, that the “Parties hereby submit to the jurisdiction
of the Federal and State Courts in California,” that any
“disputes arising between the Parties to this
Agreement” must be submitted to binding arbitration
at the Judicial Arbitration & Mediation Service
(“JAMS”) in Los Angeles, and moreover, any notices
between the parties must be “in the English language
to each other at the addresses set forth in the
Agreement via Federal Express or similar courier, with
copies via facsimile or email. . .” See, Memorandum of
Understanding (hereinafter the “2008 Agreement”)
Paras. 6-8.
A dispute arose between the parties sometime in
2010 in which the defendant purportedly breached and
repudiate the 2008 Agreement over the previouslynegotiated stock shares. Declaration of Faye Huang,
Paras. 15-17. Indeed, at that time the defendant’s CEO
allegedly stated to plaintiff that defendant was “a
Chinese company,” and was “immune to any legal
remedies that the [plaintiff] might secure from U.S.

App. 60
courts and that [defendant] would ignore and not
participate in any U.S. legal process.” Id. at Para. 18.1
In short, beginning in early 2012 a considerable
series of formal notices and documents were sent to the
defendant at its agreed-upon offices in China, and in
the exact manner contained in the 2008 Agreement.
These documents involved both the arbitration, as well
as the court notices and pleadings in this case. The fact
that the defendant actually received each and every one
of these notices and documents, and in the manner
proscribed in the agreement, is undisputed.
In March, 2012, this contractual dispute was
submitted by the plaintiff to a binding arbitration
hearing at the Los Angeles office of JAMS, before a
retired Justice of the California Court of Appeals (who
had at least 10 years of service as a Justice), as
expressly allowed and required by Paragraph 8 of the
2008 Agreement. Despite the fact that defendant
received actual notice of that hearing in a timely
manner, the defendant did not appear nor participate
in any manner in that binding arbitration. After
hearing all of the evidence, the Arbitrator issued a
detailed written decision in favor of the plaintiff, and
against the defendant, for the total sum of
$414.601,200. In that decision the Arbitrator
specifically found that the defendant had been given
proper written notice of all of the events pertinent to
the arbitration, including submission of the demand,

1

Whether these statements were actually made remains to be
seen, however, the substance of these statements have certainly
turned out to be true.

App. 61
appointment of the Arbitrator, and all hearings and
conferences both in the manner proscribed in the
agreement, as well as the rules and procedures of
JAMS International Rules. Additionally, the Arbitrator
expressly found that the Memorandum of
Understanding was an enforceable agreement, and that
the damages awarded were not speculative, and that
they were based upon an adequate showing of evidence
and law.
Notice of this ruling was properly given to the
defendant in November, 2012. Despite these facts,
defendant continued to do nothing.
In August, 2014, plaintiff filed the instant action in
which it sought to confirm this arbitration award.
Defendant was served with all of the required
documents, including the Summons and Petition, by
federal express and email, in accordance with the 2008
Agreement, and pursuant to CCP §1290.4 These facts
are undisputed.
Once again the defendant failed to timely respond,
nor make any appearance (special or otherwise) in this
case. As such, in October, 2014, this court confirmed
the binding arbitration award, without objection, and
entered a judgment in favor of plaintiff and against
defendant for $414,601,200 (the exact amount of the
arbitration award). Shortly thereafter, Defendant was
served with notice of this judgment in the same agreedupon manner. These facts are undisputed.
As such, despite the fact that in late 2014 the
defendant had actual notice that a judgment had been
entered against it for almost a half-a-billion dollars, the

App. 62
defendant continued to do nothing. However, not
surprisingly, once the plaintiff began to attempt to
execute on this judgment against some of the
defendant’s considerable assets in the United States in
November, 2015, the defendant finally decided to
specially appear in this case in January, 2016, and
attempt to take some action to attack the judgment.2
It is well settled that a court’s jurisdiction over the
parties depends on (1) minimum contacts with the
state; (2) notice and opportunity for a hearing; and
(3) compliance with statutory jurisdictional
requirements for service of process. Goldman v.
Simpson (2008) 160 Cal.App.4th 255, 263. As will be
discussed infra, this court finds that it has properly
asserted jurisdiction over the defendant in this case as
of August, 2014, and that the defendant had been
properly served with the Summons and Petition in this
action.
As to the Petition to Confirm the Arbitration Award
itself, it is also well settled that courts may not review
the merits of the arbitration award; the findings of fact
and law are conclusive unless an error of law appears
on the face of the ruling and if that error would result
in substantial injustice. Mocharsh v. Heily & Vlase
(1992) 3 Cal.4th 1, 8.
“If an award is confirmed, judgment shall be
entered in conformity therewith. The judgment so
entered has the same force and effect as, and is subject
2

This, of course, is quite typical of a judgment debtor who had
intentionally defaulted: Do nothing until and unless the judgment
creditor actually can take your money and/or seize your assets.

App. 63
to all the provisions of law relating to, a judgment in a
civil action of the same jurisdictional classification; and
it may be enforced like any other judgment of the court
in which it is entered, in an action of the same
jurisdictional classification.” Code Civ. Proc., §1287.4.
Since no such “error of law” appears on the face of
the arbitration award, the defendant’s only attack
against this judgment is to contend that it was not
properly served with process in this case. Hence, it has
filed the instant Motion to Quash and Set Aside
Default Judgment.
In short, the defendant submits that this judgment
is void, as opposed to “voidable,” since it now claims it
was not properly served in this case for several
reasons: (1) The 2008 Agreement was not a valid and/or
enforceable agreement, since under Chinese law or
custom, it was merely “an agreement to enter into an
agreement.” (“Bei wang lu”); (2) Additionally, under
Chinese law or custom the mere fact that a legal
document is actually received by mail does not formally
effectuate service until and unless the recipient
actually opens and reviews the document;3 and
3

Mr. Huang’s claim that he “ignored” all of the notices and
documents he actually received by “not opening” any of them until
March, 2015, is simply not believable. First, Mr. Huang is not
some simple country bumpkin. He is a highly-educated,
sophisticated and successful businessman/CEO of a multi-national
corporation which has considerable assets. Indeed, he has an
advanced degree from U.C. Berkeley, and most interesting of all,
he is the actual designated “Agent for Process of Service” for the
defendant’s subsidiary corporation in California. Clearly, Mr.
Huang understands the legal importance of documents which are
mailed, via federal express, to your main corporate offices, and

App. 64
(3) Even if the 2008 Agreement was valid, the service
was improper under Chinese and/or International law,
since China has expressly objected to Article 10(a) of
the Hague Convention of 1965, and as such, service
could not be properly effectuated in the manner agreed
upon in this case.
With all due respect to Chinese law and culture,
this court does not agree with the defendant’s
contentions as to these first two arguments. This is a
California court, which is generally guided by
California law, unless otherwise required to apply the
laws of another state of foreign country pursuant to a
conflict-of-law analysis. The 2008 Agreement was
entered into by parties who have substantial contacts
with the State of California. Moreover, the parties
expressly agreed to submit any and all disputes to this
agreement “to the jurisdiction of the Federal and State
Courts in California.” Indeed, the parties also expressly
agreed that any such disputes must be submitted to
binding arbitration at the JAMS offices in Los Angeles,
California.
No matter how you slice or spin it, under any
“interest” or conflict-of-law analysis it is abundantly
clear that California law applies in this case – not
Chinese law.
The Arbitrator expressly found that the 2008
Agreement was an enforceable contract, and so does
this court.

which are also sent via email (which he has never denied also
receiving). It simply stretches one’s credulity to suggest otherwise.

App. 65
As to the purported failure to serve the Summons
and Petition in this case pursuant to Chinese or
International Law, since China clearly has objected to
Article 10(a) of the Hague Convention of 1965, this
presents the only potentially-viable legal argument the
defendant may have in order to obtain its requested
relief.
The critical issue is thus: Despite the fact that
China has expressly objected to Article 10(a), can the
parties in this case still agree to be served with legal
process in the manner expressly contained in the 2008
Agreement? For the reasons discussed infra, the short
answer is “Yes.”
There appears to be no binding California precedent
on this specific issue, and as such, this may be a case of
first impression. Be that as it may, there are other nonbinding cases which address these specific issues which
this court has found instructive and persuasive. See,
e.g. Alfred E. Mann Living Trust v. ETIRC Aviation
S.a.r.l. (2010) 78 A.D.3d 137, 140-41 [Parties are free to
contractually waive Hague Convention service
provisions.]
To allow parties to enter into a contract with one
another and then proceed to unilaterally disregard
provisions out of convenience, like the one at issue
here, would allow parties to simply return to their
respective countries in order to avoid any contractual
obligations. As aptly noted by the plaintiff in its
opposition, this would essentially result in anarchy and
turn entire international arbitration law on its head.
This court respectfully declines to do so.

App. 66
Another federal case in the Southern District of
New York takes a similar position, stating that the
parties in the action contemplated a means of
appropriate extraterritorial service and waived any
objection to it. Marine Trading LTD. v. Naviera
Commercial Naylamp S.A. (1995) 879 F.Supp. 389, 391.
The court in Marine emphasizes that the standards for
service in arbitration proceedings are to be liberally
construed. Id. at 392. Furthermore, this court cannot
find (and defendant has not provided) any case law
that would indicate parties are not permitted to
contractually select alternative means of service and
thus they are not able to waive the service provisions
within the Hague Convention.
Additionally, Chinese law expressly allows “the
parties to a contract involving foreign interests [to]
choose the law applicable to settlement of their
contractual disputes.” People’s Republic of China , Civil
Law Article 145. The only exceptions involve “marital,
adoption, guardianship, support and succession
disputes,” which must be handled by China’s
administrative bodies. People’s Republic of China,
Arbitration Law Article 3.
As such, even under Chinese law there is no logical
and/or legal reason why Chinese companies should not
be able contractually agree to a manner of service as
was in the instant case.
As to the pending motion for relief, under CCP
§ 473(d) “the court may, upon motion of the injured
party, or its own motion, correct clerical mistakes in its
judgment or orders as entered, so as to conform to the
judgment or order directed, and may, on motion of

App. 67
either party after notice to the other party, set aside
any void judgment or order.” The court has power to set
aside a judgment that is void as a matter of law based
upon several defects, including: 1) Lack of subject
matter jurisdiction; 2) Lack of personal jurisdiction;
3) Lack of actual or constructive notice of proceedings
(e.g., because papers served on defendant’s attorney
who had been suspended by State Bar and thus had no
authority to represent defendant). [Lovato v. Santa Fe
Int’l Corp. (1984) 151 Cal App 3d 549, 553]; 4) Lack of
or improper service of summons. However, substantial
compliance with the service of summons statutes is
sufficient to defeat a motion under CCP § 473(d).
Gibble v. Car-Lene Research, Inc. (1998) 67
Cal.App.4th 295, 313; Ellard v. Conway (2001) 94 Cal
App 4th 540, 544; 5) Default improperly entered—e.g.,
without service on defendant of CCP § 425.11
statement of damages required in personal injury and
death actions. Heidary v. Yadollahi (2002) 99 Cal App
4th 857, 862; or 6) Default judgment exceeding amount
demanded in complaint.
Per Rappleyea v. Campbell (1994) 8 Cal. 4th 975,
“after six months from entry of default, a trial court
may still vacate a default on equitable grounds even if
statutory relief is unavailable. The appellate courts
reviews a challenge to a trial court’s order denying a
motion to vacate a default on equitable grounds as the
Court would a decision under CCP § 473: for an abuse
of discretion. One ground for equitable relief is
extrinsic mistake--a term broadly applied when
circumstances extrinsic to the litigation have unfairly
cost a party a hearing on the merits. Extrinsic mistake
is found when (among other things) a mistake led a

App. 68
court to do what it never intended.” Relief is generally
available only for extrinsic fraud or mistake. But these
terms are given a broad interpretation and cover
almost any circumstance by which a party has been
deprived of a fair hearing. Estate of Sanders v. Sutton
(1985) 40 C.3d 607, 614. There need be no actual fraud
or mistake in the strict sense.
Be that as it may, assuming for the sake of
argument that somehow the plaintiff was actually
required to serve the Summons and Petition in this
action upon the defendant in the manner suggested by
defendant (to wit, vis-á-vis the protocols established by
the Chinese government), once the defendant was
“served” with the Summons and Petition in the manner
which actually occurred in this case it had an
obligation to do something – to do exactly what it is
doing now – to specially appear and to file a motion to
quash. This is what is called acting with “diligence.”
The law is well settled that if a party is seeking to
obtain relief from this court’s equitable powers, it must
act with reasonable diligence. Rappleyea v. Campbell,
supra., 8 Cal.4th at 982. See also, Witkin, Cal.
Procedure (5th Ed.), Attack on Judgment in Trial Court,
§238. Thus, to the extent that the defendant is also
seeking to have this court to exercise its broad
equitable powers to grant the requested relief, under
the totality of the circumstances it respectfully declines
to grant such equitable relief due to the lack of
reasonable diligence by the defendant in seeking relief
after discovery of the facts back in 2012 (as to the
arbitration) and/or after discovery of the facts back in
2014 (as to this case).

App. 69
Since the defendant is not legally nor equitably
entitled to the relief requested, its pending motions are
DENIED in their entirety.
Clerk to give notice.
IT IS SO ORDERED.
Dated: April 15, 2016
/s/ Hon. Randolph M. Hammock
Hon. Randolph M. Hammock
Judge of the Superior Court

App. 70

APPENDIX D
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
Case No. BS149995
Assigned to the Honorable Rafael Ongkeko
(Dept. 73)
[Filed: October 23, 2014]
__________________________________________
ROCKEFELLER TECHNOLOGY
)
INVESTMENTS (ASIA) VII,
)
Petitioner,
)
v.
)
CHANGZHOU SINOTYPE TECHNOLOGY )
CO., LTD.,
)
Respondent.
)
__________________________________________)
JUDGMENT AND ORDER CONFIRMING
ARBITRATION AWARD
The petition of Rockefeller Technology Investments
(Asia) VII for an order confirming an arbitration award
came on regularly for hearing by the court on October
23, 2014, Petitioner Rockefeller Technology
Investments (Asia) VII appeared by its attorney of
record Gary Ho of Blum Collins, LLP. Respondent
Changzhou Sinotype Technology Co., Ltd. did not
appear at the hearing.

App. 71
Proof having been made to the satisfaction of the
court that the petition should be granted, IT IS
ORDERED that the award of Justice Richard C. Neal
(Ref.), Arbitrator, Judicial Arbitration & Mediation
Service (“JAMS”), dated November 6, 2013, is
confirmed in all respects and that judgment be entered
in conformity therewith.
IT IS ADJUDGED that petitioner Rockefeller
Technology Investments (Asia) VII, recover from
respondent Changzhou Sinotype Technology Co., Ltd.,
the sum of FOUR HUNDRED FOURTEEN MILLION
SIX HUNDRED AND ONE THOUSAND AND TWO
HUNDRED DOLLARS ($414,601,200), together with
interest thereon at the rate of ten (10) percent per year
from November 6, 2013.
Dated: OCT 23 2014
_____RAFAEL A. ONGKEKO, JUDGE_____
JUDGE OF THE SUPERIOR COURT

App. 72

APPENDIX E
JAMS ARBITRATION NO. 1220044102
[Filed: November 6, 2013]
__________________________________
ROCKEFELLER TECHNOLOGY )
INVESTMENTS (ASIA) VII,
)
CLAIMANT
)
V.
)
CHANGZHOU SINOTYPE
)
TECHNOLOGY CO., LTD.,
)
RESPONDENT.
)
__________________________________)
FINAL AWARD
Introduction. In this arbitration, Claimant
Rockefeller Technology Investments Asia (VII) asserts
claims for breach of its written Memorandum of
Understanding agreement (MOU) dated February 18,
2008, with Respondent Changzhou Sinotype
Technology Co. Ltd, pursuant to which the Claimant
and Respondent were to from a new company to exploit
the latter’s typeface technology.
As further explained below, Respondent has failed
to appear in the arbitration, despite notice and an
opportunity to appear and be heard. Accordingly,
consistent with the applicable rules, the case is
submitted and decided based on evidence and
arguments presented by Claimant, all as further
described below.

App. 73
The following are the Arbitrator’s statement of
reasons and award.
Statement of the Case.
Arbitrability. Paragraph 8 of the MOU specifies
that either party may submit any dispute arising
between them to JAMS in Los Angeles for conclusive
and final resolution. The claims presented concern a
dispute between the two parties, and accordingly, the
dispute is arbitrable.
Summary of Proceedings. Claimant submitted its
demand in arbitration to JAMS in Los Angeles on
February 27, 2012. JAMS commenced the arbitration
on March 15, 2012. JAMS appointed the undersigned
Arbitrator April 6, 2012. A first telephonic Preliminary
Arbitration Management Conference was noticed for
and conducted May 30, 2012. Claimant appeared by its
then counsel John Gaimes (Mr. Blum has subsequently
replaced Mr. Gaimes as Claimant’s counsel).
Respondent did not appear.
After the conclusion of the Preliminary Conference,
the Arbitrator issued Preliminary Conference Order
No. 1, which set the arbitration for plenary hearing
September 14, 2012, at 1:00 PM at the JAMS Santa
Monica California Resolution Center. The order further
addressed the subject of the correct rules for the
arbitration. The Agreement specifies the “streamlined
procedures,” but the JAMS Streamlined Rules apply
only to domestic cases where the amount in
controversy is $250,000 or less. The demand seeks
damages far in excess of that sum, and the Respondent
resides in China. The applicable JAMS Rules for this

App. 74
case, and the rules which will govern the arbitration,
are the JAMS International Arbitration Rules, which
apply when, as here, the parties are located in different
sovereign states and have agreed to arbitrate before
JAMS (see Article 1.1, 1.4).
On September 4, 2012, at the request of Claimant,
the hearing scheduled for September 14, 2012, was
continued to February 4, 2013, at 1:00PM at the JAMS
Santa Monica Resolution Center. Claimant appeared
before the Arbitrator on the date and time and
submitted declarations and documentary evidence in
support of its request for an award in its favor.
Following the February 4th hearing, the Arbitrator
issued an Interim Order for Briefing. The order noted
that Claimant had not submitted a memorandum on
February 4th explaining its claims that the governing
rules require that in a default setting the Arbitrator
may not make an award without receiving adequate
proof and determining the validity of the claim. The
Arbitrator further raised certain specific questions
about the claims.
Several months then elapsed. Claimant eventually
submitted a memorandum explaining its claims,
support by various additional evidence further detailed
below, and an addendum addressing the specific
questions raised in the interim order.
Written proofs of service in the JAMS file, prepared
and signed by JAMS Case Managers, confirm that
Respondent was given due written notice of all of the
events mentioned above, including submission of the
demand for arbitration, commencement of the

App. 75
arbitration, appointment of the Arbitrator, the
preliminary telephone conference, the hearing
scheduled for September 14, 2012, continuance of the
hearing to February 4, 2013, and the Interim Order
requiring additional submissions. Notices and copies of
all materials were sent both by email and Federal
Express to Respondent’s Chairman Kejiang “Curt”
Huang, Changzhou Sinotype Technology Co. Ltd,
Niutang Town, Changzhou, Jiangsu 213168, China.
At no time has Respondent appeared at or
participated in any of the hearings or proceedings
described above. Respondent did not appear for the
hearing conducted on February 4, 2013, or submit any
opposition to Claimant’s demand and proofs, nor any
response to Claimant’s subsequently submitted
memorandum.
Further, Claimant’s submission includes testimony
that Respondent’s Mr. Huang affirmatively
communicated that Respondent would not appear or
participate in this proceeding, and that in his view
Claimant will have great difficulty pursuing a remedy
in China.
By reason of Respondent’s failure to appear and
participate in the proceeding, the case will proceed to
conclusion under Article 27 of the JAMS International
Rules, which authorizes the tribunal to proceed by
default where one party has failed to appear or respond
or defend.
Claims and Evidence. The parties to the MOU are
Claimant Rockefeller Technology Investments (Asia)
VII (RockAsia7), headquartered in New York, New

App. 76
York, and Changzhou Sinotype Technology Co., Ltd.,
(Changzhou) headquartered in Changzhou, Jianshu
Province, China. The first sentence of the agreement
states that its purpose is to create, operate and fund an
enterprise between Claimant and Respondent. The
parties agree to organize a new company, to be known
as World Wide Type or the Company, or Newco, with
principal offices in the Silicon Valley, California. Each
party is to contribute the entire interest in its business
to the New Company. In return for this contribution,
Claimant is to receive a 12.5% interest in Newco, and
Respondent, an 87.5% interest. It is agreed that Kejian
(Curt) Huang, a principal of Respondent, will serve as
President and CEO of Newco for a minimum of five
years. The board of directors of Newco is to have
between 3 and 11 directors, with at least one director
appointed by Claimant, two if there are five or more
directors. All major decisions require unanimous
approval of the board. Claimant’s 12.5% interest cannot
be diluted. The parties agree to proceed with all
deliberate speed, within 90 days if possible, to draft
and execute long form agreements carrying for the
agreements in the MOU, together with “any and all
documents in furtherance of the agreements.” The
MOU further provided that “upon execution by the
parties, this Agreement shall be in full force and effect
and shall constitute the full understanding of the
parties. . .the parties may modify this [MOU]. . .only
through a written agreement signed by all parties.”
Claimant RockAsia7 is a partnership and is one of
a number of special purpose entities organized to
provide capital to support high tech companies in Asia.
The partners in RockAsia7 include Rockefeller Fund

App. 77
Management Co. LLC. Faye Huang is the President of
both entities (she is not related to Mr. Curt Huang).
Respondent Changzhou has been a leading
developer, marketer and licensor of font software in
China since 1991. Claimant offers evidence that
Changzhou is “one of the leading producers of font
software in the world, with vast industry and market
experience, and widespread brand recognition for its
cutting edge technology and artistic appeal;” its
customers include Apple, IBM, HP, and Adobe; Apple
licenses its software and uses it in every one of its
products sold around the world; it is the exclusive
licensor to the People’s Republic of China for official
use.
Claimant alleges that Respondent breached a
number of provisions of the MOU. Respondent told
Claimant that it was unilaterally abrogating
Claimant’s 12.5% ownership share in Newco, as well as
the other minority shareholder rights in MOU sections
II (2), (5), and (6). Respondent declined to pay $595,000
in promotional expenses incurred by Claimant under
section III(9). Claimant further alleges that
Respondent breached the covenant of good faith by
demanding that Claimant reduce its ownership interest
to 3% and give up minority shareholder protections,
and by abrogating the MOU when Claimant refused to
do so. Claimant further alleges that Respondent and
Curt Huang breached fiduciary duties owed to
Claimant as minority shareholder, and converted
Claimant’s property. These allegations are supported
by Ms. Huang’s declaration, and of course are not
controverted by the non-appearing Respondent.

App. 78
Claimant offers evidence that it was funded at the
time of formation of the new enterprise with 200,000
unrestricted shares of AIG with a New York Stock
Exchange public share value of $58.70 per share, a
total of $9.65 million as of January 2008. These were
assigned to Respondent upon execution of the MOU.
Claimant assisted Respondent during the winter of
2010 in seeking additional financial investors to buy a
10% interest in Newco. The best of three offers,
obtained in May 2010, was to pay $60 million for this
interest.
Ms. Huang declares that following receipt of the $60
million offer Mr. Huang told her that Respondent had
greatly overvalued the 12.5% interest given to
Claimant in return for $9.65 million. He insisted that
Claimant agree to a reduction of its interest to 3%, and
give up its minority protections. When Claimant
refused, Respondent on July 10, 2010, unilaterally
abrogated the MOU.
Ms. Huang’s declaration further attests Mr. Curt
Huang told her that Respondent was immune from any
remedies which might be sought in U.S. courts and
that Claimant’s hope of any redress in China was
futile.
Claimant urges that any attempt at specific
performance relief will be futile. Claimant seeks as
damages compensation for loss of its 12.5% interest in
the New Company, plus the $595,000 expended in
promotional activities authorized under MOU III(9),
plus half of the arbitration costs.

App. 79
The damages for the loss of the 12.5% interest are
the big-ticket item. Claimant presents the expert
declaration of Alfred Zhong, a 30-year veteran finance
professional with experience in the U.S., U.K., and
China markets. He served for several years on the
faculty of the Shanghai University of Finance and
Economics, and on the boards of six Chinese firms
which progressed from start up to public ownership. He
is a graduate of the Sorbonne (degree in Law and
Economics) and the Institut European D’
Administration D’Affairs (Masters in Business).
Zhong opines that Claimant’s damages for loss of its
12.5% include three components: value of the shares,
plus value of the Claimant’s share of the control
premium enjoyed by Curt Huang, plus value of the nondilution provision in the MOU. He values Claimant’s
control premium share at 10% of total company value,
and the anti-dilution clause value at 6.25%. Applied to
the $600 million valuation indicated by the July 2010
offer of $60 million for 10%, these three components
add up to $172 million in damages. To this Claimant
asks be added $595,000 in reimbursable expenses and
half of JAMS total fees of $15,717, or $7,858.
But Claimant has a further argument. It says the
value of Claimant’s interest in Newco should be
assessed as of a date later than July 2010, the time of
breach. Claimant concedes the general rule calls for
valuation as of the time of breach. But it cites the “New
York Rule,” which allows selection and application of a
later date for valuation, a “reasonable time after the
breach,” the reasonable time being selected by the
tribunal. The rule responds to the perverse incentive

App. 80
possessed by defendants in a rising market to breach,
in the knowledge that damages are capped as of the
time of breach.
Claimant proposes that the time of valuation be set
at February 2012, the date this arbitration was
commenced. It acknowledges the difficulty of
computing Respondent’s value, since there is no public
market for its shares. Expert Zhong uses the “wave”
method for this purpose, which assumes that
Respondent’s value has grown over the same interval
at the same rate as other firms ‘’riding the same
economic wave.” Zhong selects Apple as the comparator
firm, and proposes to extrapolate Respondent’s July
2010 value to February 2012 by growing it in the same
proportion as Apple during the same interval–240%.
This inflator increases Claimant’s claimed damages for
loss of the share interest and attendant rights to $414
million—28.5% of the estimated total value of
Respondent of $1.440 billion, using the wave method.
Discussion. Claimant has allayed the concerns
noted in the Interim Order, and made out a clear case
of breach. The MOU is definite in its obligations, and
expressly intended to be binding. Claimant performed,
contributing the value it had agreed to contribute.
Respondent repudiated the MOU, in a clear attempt to
retrade the agreed terms.
Claimant also establishes its other claims for breach
of fiduciary duty and conversion.
The Arbitrator accepts the evidence presented
through expert Zhong concerning the percentage values
of the control premium and the anti-dilution clause.

App. 81
The Arbitrator also finds this to be an appropriate case
for application of the New York Rule, and adopts
Claimant’s proposal to set the date of valuation at
February 2012. Claimant’s arguments are plausible
and credible. Respondent agreed to address disputes by
arbitration in Los Angeles, but has breached that
obligation as well, and in so doing, deliberately
forfeited the opportunity to appear and present counter
evidence and arguments which might have persuaded
this tribunal to reach a different result.
Final Award. Claimant is entitled to an award in
the amount of $414,601,200, which includes damages
for the interest in the business of $414 million, plus
$595,000 in expenses, plus $7,856 constituting half of
the arbitration fees.
This Final Award is rendered November 6, 2013,
and is intended to be subject to confirmation by a
competent court.
The Case Manager, Jose Patino, is requested to
promptly serve this Award on the parties.
By: /s/ Richard C. Neal
Hon. Richard C. Neal (Ret.)
Arbitrator

App. 82

APPENDIX F
HCCH
HAGUE CONFERENCE ON PRIVATE
INTERNATIONAL LAW
CONFÉRENCE DE LA HAYE DE DROIT
INTERNATIONAL PRIVÉ
14. CONVENTION ON THE SERVICE ABROAD
OF JUDICIAL AND EXTRAJUDICIAL
DOCUMENTS IN CIVIL OR COMMERCIAL
MATTERS1
(Concluded 15 November 1965)
The States signatory to the present Convention,
Desiring to create appropriate means to ensure that
judicial and extrajudicial documents to be served
abroad shall be brought to the notice of the addressee
in sufficient time,
Desiring to improve the organisation of mutual judicial
assistance for that purpose by simplifying and
expediting the procedure,

1

This Convention, including related materials, is accessible on the
website of the Hague Conference on Private International Law
(www.hcch.net), under “Conventions” or under the “Service
Section”. For the full history of the Convention, see Hague
Conference on Private International Law, Actes et documents de la
Dixième session (1964), Tome III, Notification (391 pp.).

App. 83
Have resolved to conclude a Convention to this effect
and have agreed upon the following provisions:
Article 1
The present Convention shall apply in all cases, in civil
or commercial matters, where there is occasion to
transmit a judicial or extrajudicial document for service
abroad.
This Convention shall not apply where the address of
the person to be served with the document is not
known.
CHAPTER I – JUDICIAL DOCUMENTS
Article 2
Each Contracting State shall designate a Central
Authority which will undertake to receive requests for
service coming from other Contracting States and to
proceed in conformity with the provisions of Articles 3
to 6.
Each State shall organise the Central Authority in
conformity with its own law.
Article 3
The authority or judicial officer competent under the
law of the State in which the documents originate shall
forward to the Central Authority of the State addressed
a request conforming to the model annexed to the
present Convention, without any requirement of
legalisation or other equivalent formality.

App. 84
The document to be served or a copy thereof shall be
annexed to the request. The request and the document
shall both be furnished in duplicate.
Article 4
If the Central Authority considers that the request does
not comply with the provisions of the present
Convention it shall promptly inform the applicant and
specify its objections to the request.
Article 5
The Central Authority of the State addressed shall
itself serve the document or shall arrange to have it
served by an appropriate agency, either –
a) by a method prescribed by its internal law for the
service of documents in domestic actions upon
persons who are within its territory, or
b) by a particular method requested by the applicant,
unless such a method is incompatible with the law
of the State addressed.
Subject to sub-paragraph (b) of the first paragraph of
this Article, the document may always be served by
delivery to an addressee who accepts it voluntarily. If
the document is to be served under the first paragraph
above, the Central Authority may require the document
to be written in, or translated into, the official language
or one of the official languages of the State addressed.
That part of the request, in the form attached to the
present Convention, which contains a summary of the

App. 85
document to be served, shall be served with the
document.
Article 6
The Central Authority of the State addressed or any
authority which it may have designated for that
purpose, shall complete a certificate in the form of the
model annexed to the present Convention.
The certificate shall state that the document has been
served and shall include the method, the place and the
date of service and the person to whom the document
was delivered. If the document has not been served, the
certificate shall set out the reasons which have
prevented service.
The applicant may require that a certificate not
completed by a Central Authority or by a judicial
authority shall be countersigned by one of these
authorities.
The certificate shall be forwarded directly to the
applicant.
Article 7
The standard terms in the model annexed to the
present Convention shall in all cases be written either
in French or in English. They may also be written in
the official language, or in one of the official languages,
of the State in which the documents originate.
The corresponding blanks shall be completed either in
the language of the State addressed or in French or in
English.

App. 86
Article 8
Each Contracting State shall be free to effect service of
judicial documents upon persons abroad, without
application of any compulsion, directly through its
diplomatic or consular agents. Any State may declare
that it is opposed to such service within its territory,
unless the document is to be served upon a national of
the State in which the documents originate.
Article 9
Each Contracting State shall be free, in addition, to use
consular channels to forward documents, for the
purpose of service, to those authorities of another
Contracting State which are designated by the latter
for this purpose.
Each Contracting State may, if exceptional
circumstances so require, use diplomatic channels for
the same purpose.
Article 10
Provided the State of destination does not object, the
present Convention shall not interfere with –
a) the freedom to send judicial documents, by postal
channels, directly to persons abroad,
b) the freedom of judicial officers, officials or other
competent persons of the State of origin to effect
service of judicial documents directly through the
judicial officers, officials or other competent persons
of the State of destination,

App. 87
c) the freedom of any person interested in a judicial
proceeding to effect service of judicial documents
directly through the judicial officers, officials or
other competent persons of the State of destination.
Article 11
The present Convention shall not prevent two or more
Contracting States from agreeing to permit, for the
purpose of service of judicial documents, channels of
transmission other than those provided for in the
preceding Articles and, in particular, direct
communication between their respective authorities.
Article 12
The service of judicial documents coming from a
Contracting State shall not give rise to any payment or
reimbursement of taxes or costs for the services
rendered by the State addressed. The applicant shall
pay or reimburse the costs occasioned by –
a) the employment of a judicial officer or of a person
competent under the law of the State of destination,
b) the use of a particular method of service.
Article 13
Where a request for service complies with the terms of
the present Convention, the State addressed may
refuse to comply therewith only if it deems that
compliance would infringe its sovereignty or security.
It may not refuse to comply solely on the ground that,
under its internal law, it claims exclusive jurisdiction
over the subject-matter of the action or that its internal

App. 88
law would not permit the action upon which the
application is based.
The Central Authority shall, in case of refusal,
promptly inform the applicant and state the reasons for
the refusal.
Article 14
Difficulties which may arise in connection with the
transmission of judicial documents for service shall be
settled through diplomatic channels.
Article 15
Where a writ of summons or an equivalent document
had to be transmitted abroad for the purpose of service,
under the provisions of the present Convention, and
the defendant has not appeared, judgment shall not be
given until it is established that –
a) the document was served by a method prescribed by
the internal law of the State addressed for the
service of documents in domestic actions upon
persons who are within its territory, or
b) the document was actually delivered to the
defendant or to his residence by another method
provided for by this Convention, and that in either
of these cases the service or the delivery was
effected in sufficient time to enable the defendant to
defend.

App. 89
Each Contracting State shall be free to declare that the
judge, notwithstanding the provisions of the first
paragraph of this Article, may give judgment even if no
certificate of service or delivery has been received, if all
the following conditions are fulfilled –
a) the document was transmitted by one of the
methods provided for in this Convention,
b) a period of time of not less than six months,
considered adequate by the judge in the particular
case, has elapsed since the date of the transmission
of the document,
c) no certificate of any kind has been received, even
though every reasonable effort has been made to
obtain it through the competent authorities of the
State addressed. Notwithstanding the provisions of
the preceding paragraphs the judge may order, in
case of urgency, any provisional or protective
measures.
Article 16
When a writ of summons or an equivalent document
had to be transmitted abroad for the purpose of service,
under the provisions of the present Convention, and a
judgment has been entered against a defendant who
has not appeared, the judge shall have the power to
relieve the defendant from the effects of the expiration
of the time for appeal from the judgment if the
following conditions are fulfilled –

App. 90
a) the defendant, without any fault on his part, did not
have knowledge of the document in sufficient time
to defend, or knowledge of the judgment in
sufficient time to appeal, and
b) the defendant has disclosed a prima facie defence to
the action on the merits.
An application for relief may be filed only within a
reasonable time after the defendant has knowledge of
the judgment.
Each Contracting State may declare that the
application will not be entertained if it is filed after the
expiration of a time to be stated in the declaration, but
which shall in no case be less than one year following
the date of the judgment.
This Article shall not apply to judgments concerning
status or capacity of persons.
CHAPTER II – EXTRAJUDICIAL DOCUMENTS
Article 17
Extrajudicial documents emanating from authorities
and judicial officers of a Contracting State may be
transmitted for the purpose of service in another
Contracting State by the methods and under the
provisions of the present Convention.
CHAPTER III – GENERAL CLAUSES
Article 18
Each Contracting State may designate other
authorities in addition to the Central Authority and
shall determine the extent of their competence. The

App. 91
applicant shall, however, in all cases, have the right to
address a request directly to the Central Authority.
Federal States shall be free to designate more than one
Central Authority.
Article 19
To the extent that the internal law of a Contracting
State permits methods of transmission, other than
those provided for in the preceding Articles, of
documents coming from abroad, for service within its
territory, the present Convention shall not affect such
provisions.
Article 20
The present Convention shall not prevent an
agreement between any two or more Contracting
States to dispense with –
a) the necessity for duplicate copies of transmitted
documents as required by the second paragraph of
Article 3,
b) the language requirements of the third paragraph
of Article 5 and Article 7,
c) the provisions of the fourth paragraph of Article 5,
d) the provisions of the second paragraph of Article 12.

App. 92
Article 21
Each Contracting State shall, at the time of the deposit
of its instrument of ratification or accession, or at a
later date, inform the Ministry of Foreign Affairs of the
Netherlands of the following –
a) the designation of authorities, pursuant to Articles
2 and 18,
b) the designation of the authority competent to
complete the certificate pursuant to Article 6,
c) the designation of the authority competent to
receive documents transmitted by consular
channels, pursuant to Article 9.
Each Contracting State shall similarly inform the
Ministry, where appropriate, of –
a) opposition to the use of methods of transmission
pursuant to Articles 8 and 10,
b) declarations pursuant to the second paragraph of
Article 15 and the third paragraph of Article 16,
c) all modifications of the above designations,
oppositions and declarations.
Article 22
Where Parties to the present Convention are also
Parties to one or both of the Conventions on civil
procedure signed at The Hague on 17th July 1905, and
on 1st March 1954, this Convention shall replace as
between them Articles 1 to 7 of the earlier Conventions.

App. 93
Article 23
The present Convention shall not affect the application
of Article 23 of the Convention on civil procedure
signed at The Hague on 17th July 1905, or of Article 24
of the Convention on civil procedure signed at The
Hague on 1st March 1954.
These Articles shall, however, apply only if methods of
communication, identical to those provided for in these
Conventions, are used.
Article 24
Supplementary agreements between Parties to the
Conventions of 1905 and 1954 shall be considered as
equally applicable to the present Convention, unless
the Parties have otherwise agreed.
Article 25
Without prejudice to the provisions of Articles 22 and
24, the present Convention shall not derogate from
Conventions containing provisions on the matters
governed by this Convention to which the Contracting
States are, or shall become, Parties.
Article 26
The present Convention shall be open for signature by
the States represented at the Tenth Session of the
Hague Conference on Private International Law.
It shall be ratified, and the instruments of ratification
shall be deposited with the Ministry of Foreign Affairs
of the Netherlands.

App. 94
Article 27
The present Convention shall enter into force on the
sixtieth day after the deposit of the third instrument of
ratification referred to in the second paragraph of
Article 26.
The Convention shall enter into force for each signatory
State which ratifies subsequently on the sixtieth day
after the deposit of its instrument of ratification.
Article 28
Any State not represented at the Tenth Session of the
Hague Conference on Private International Law may
accede to the present Convention after it has entered
into force in accordance with the first paragraph of
Article 27. The instrument of accession shall be
deposited with the Ministry of Foreign Affairs of the
Netherlands.
The Convention shall enter into force for such a State
in the absence of any objection from a State, which has
ratified the Convention before such deposit, notified to
the Ministry of Foreign Affairs of the Netherlands
within a period of six months after the date on which
the said Ministry has notified it of such accession.
In the absence of any such objection, the Convention
shall enter into force for the acceding State on the first
day of the month following the expiration of the last of
the periods referred to in the preceding paragraph.

App. 95
Article 29
Any State may, at the time of signature, ratification or
accession, declare that the present Convention shall
extend to all the territories for the international
relations of which it is responsible, or to one or more of
them. Such a declaration shall take effect on the date
of entry into force of the Convention for the State
concerned.
At any time thereafter, such extensions shall be
notified to the Ministry of Foreign Affairs of the
Netherlands.
The Convention shall enter into force for the territories
mentioned in such an extension on the sixtieth day
after the notification referred to in the preceding
paragraph.
Article 30
The present Convention shall remain in force for five
years from the date of its entry into force in accordance
with the first paragraph of Article 27, even for States
which have ratified it or acceded to it subsequently.
If there has been no denunciation, it shall be renewed
tacitly every five years. Any denunciation shall be
notified to the Ministry of Foreign Affairs of the
Netherlands at least six months before the end of the
five year period.

App. 96
It may be limited to certain of the territories to which
the Convention applies.
The denunciation shall have effect only as regards the
State which has notified it. The Convention shall
remain in force for the other Contracting States.
Article 31
The Ministry of Foreign Affairs of the Netherlands
shall give notice to the States referred to in Article 26,
and to the States which have acceded in accordance
with Article 28, of the following –
a) the signatures and ratifications referred to in
Article 26;
b) the date on which the present Convention enters
into force in accordance with the first paragraph of
Article 27;
c) the accessions referred to in Article 28 and the
dates on which they take effect;
d) the extensions referred to in Article 29 and the
dates on which they take effect;
e) the designations, oppositions and declarations
referred to in Article 21;
f) the denunciations referred to in the third paragraph
of Article 30.
In witness whereof the undersigned, being duly
authorised thereto, have signed the present
Convention.

App. 97
Done at The Hague, on the 15th day of November,
1965, in the English and French languages, both texts
being equally authentic, in a single copy which shall be
deposited in the archives of the Government of the
Netherlands, and of which a certified copy shall be
sent, through the diplomatic channel, to each of the
States represented at the Tenth Session of the Hague
Conference on Private International Law.

App. 98

APPENDIX G
SUMMONS
(CITACION JUDICIAL)
Case No. BS149995
[Filed: August 5, 2014]
_____________________________________________
NOTICE TO DEFENDANT:
)
(AVISO AL DEMANDADO):
)
Changzhou Sinotype Technology Co., Ltd.
)
)
YOU ARE BEING SUED BY PLAINTIFF:
)
(LO ESTÁ DEMANDANDO EL
)
DEMANDANTE):
)
Rockefeller Technology Investments (Asia) VII )
_____________________________________________)
NOTICE! You have been sued. The court may decide
against you without your being heard unless you
respond within 30 days. Read the information below.
You have 30 CALENDAR DAYS after this summons
and legal papers are served on you to file a written
response at this court and have a copy served on the
plaintiff. A letter or phone call will not protect you.
Your written response must be in proper legal form if
you want the court to hear your case. There may be a
court form that you can use for your response. You can
find these court forms and more information at the
California Courts Online Self-Help Center
(www.courtinfo.ca.gov/selfhelp), your county law

App. 99
library, or the courthouse nearest you. If you cannot
pay the filing fee, ask the court clerk for a fee waiver
form. If you do not file your response on time, you may
lose the case by default, and your wages, money, and
property may be taken without further warning from
the court.
There are other legal requirements. You may want
to call an attorney right away. If you do not know an
attorney, you may want to call an attorney referral
service. If you cannot afford an attorney, you may be
eligible for free legal services from a nonprofit legal
services program. You can locate these nonprofit
groups at the California Legal Services Web site
(www.lawhelpcalifornia.org), the California Courts
Online Self-Help Center (www.courtinfo.ca.gov/selfhelp),
or by contacting your local court or county bar
association. NOTE: The court has a statutory lien for
waived fees and costs on any settlement or arbitration
award of $10,000 or more in a civil case. The court’s
lien must be paid before the court will dismiss the case.
¡AVISO! Lo han demandado. Si no responde dentro de
30 días, la corte puede decidir en su contra sin escuchar
su versión. Lea la información a continuación.
Tiene 30 DÍAS DE CALENDARIO después de que le
entreguen esta citación y papeles legales para presentar
una respuesta por escrito en esta corte y hacer que se
entregue una copia al demandante. Una carta o una
llamada telefónica no lo protegen. Su respuesta por
escrito tiene que estar en formato legal correcto si desea
que procesen su caso en la corte. Es posible que haya un
formulario que usted pueda usar para su respuesta.
Puede encontrar estos formularios de la corte y más

App. 100
información en el Centro de Ayuda de las Cortes de
California (www.sucorte.ca.gov), en la biblioteca de
leyes de su condado o en la corte que le quede más cerca.
Si no puede pagar la cuota de presentación, pida al
secretario de la corte que le dé un formulario de
exención de pago de cuotas. Si no presenta su respuesta
a tiempo, puede perder el caso por incumplimiento y la
corte le podrá quitar su sueldo, dinero y bienes sin más
advertencia.
Hay otros requisitos legales. Es recomendable que
llame a un abogado inmediatamente. Si no conoce a un
abogado, puedo llamar a un servicio de remisión a
abogados. Si no puede pagar a un abogado, es posible
que cumpla con los requisitos para obtener servicios
legales gratuitos de un programa de servicios legales sin
fines de lucro. Puede encontrar estos grupos sin fines de
lucro en el sitio web de California Legal Services,
(www.lawhelpcalifornia.org), en el Centro de Ayuda de
las Cortes de California, (www.sucorte.ca.gov) o
poniéndose en contacto con la corte o el colegio de
abogados locales. AVISO: Por ley, la corte tiene derecho
a reclamar las cuotas y los cosios exentos por imponer
un gravamen sobre cualquier recuperación de $10,000
ó más de valor recibida mediante un acuerdo o una
concesíon de arbitraje en un caso de derecho civil. Tiene
que pagar el gravamen de la corte antes de que la corte
pueda desechar el caso.

App. 101
The name and address of the court is:
(El nombre y dirección de la carte es):
Los Angeles Superior Court
111 North Hill Street
Los Angeles, California 90012
The name, address, and telephone number of plaintiff’s
attorney, or plaintiff without an attorney, is:
(El nombre, la dirección y el numero de teléfono del
abogado del demandante, o el demandante que no tiene
abogado, es):
Gary Ho,
Blum Collins, LLP,
707 Wilshire Blvd., Suite 4880,
Los Angeles, California 90017
DATE:
(Fecha)________________________________________
Clerk, by
(Secretario) /s/ SHERRI R. CARTER
Deputy
(Adjunto)
NOTICE TO THE PERSON SERVED:
You are served.
 on behalf of (specify): Changzhou Sinotype
Technology Co., Ltd.

other (specify): business organization, form
unknown

App. 102

APPENDIX H
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
CASE NO. BS149995
[Filed: January 28, 2016]
STEVE QI (Bar No. CA-228223)
steveqi@sqilaw.com
CHLOE S. XIU (Bar No. CA-270213)
chloexiu@sqilaw.com
LAW OFFICES OF STEVE QI & ASSOCIATES
388 E. Valley Blvd., Suite 200
Alhambra, CA 91801
Tel: 626.282.9878
Fax: 626.282.8968
_______________________________________
ROCKEFELLER TECHNOLOGY
)
INVESTMENTS (ASIA) VII,
)
)
Petitioner,
)
)
v.
)
)
CHANGZHOU SINOTYPE
)
TECHNOLOGY CO., LTD.,
)
)
Respondent.
)
_______________________________________)

App. 103
SPECIALLY APPEARING DEFENDANT
CHANGZHOU SINOTYPE TECHNOLOGY CO.,
LTD.’S NOTICE OF MOTION AND MOTION TO
QUASH AND TO SET ASIDE DEFAULT
JUDGMENT FOR INSUFFICIENCY OF
SERVICE OF PROCESS (C.C.P. SECTION 473);
DECLARATION OF KEJIAN (“CURT”) HUANG;
DECLARATION OF HOWIE LAN
[Filed concurrently: [Proposed] Order and Notice of
Lodging of Non-California Authorities in Support of
Motion to Quash and to Set Aside Default Judgment
for Insufficiency of Service of Process]
Date: February 24, 2016
Time: 1:30PM
Judge: Hon. Randolph Hammock
Dept.: 77
RES ID: 160114096940
*

*

*

(pp. 10-12)
I. Curt Huang and SinoType Learn of the
Default Judgment
Because he was never served with formal process,
Curt did not learn of the arbitration award of more
than $414 million or the default judgment confirming
the award until March 2015. (Id., ¶90.) Curt, and
SinoType, learned of the proceedings only when a client
advised that there were enforcement proceedings
against it in Santa Clara Superior Court. (Id.)

App. 104
III. SERVICE OF SUMMONS MUST
QUASHED AND DEFAULT SET ASIDE

BE

Code of Civil Procedure section 473(d) provides that
a court “may, on motion of either party after notice to
the other party, set aside any void judgment.” A default
judgment is void under section 473 if “service was
improper.” Strathvale Holdings v. E.B.H, 126 Cal. App.
4th 1241, 1250 (2005). A motion to quash pursuant to
Code of Civil Procedure section 418.10 may be brought
concurrently, as a part of a motion to set aside a
default, and the movant may do so through a special
appearance. Civ. Proc. Code §§ 418.10(d), 473(d).
Because California law “strongly favors trial and
disposition on the merits[,] . . . any doubts in applying
section 473 must be resolved in favor of the party
seeking relief from default.” Parage v. Couedel, 60 Cal.
App. 4th 1037, 1041 (1997); Davis v. Kay, 34 Cal. App.
3d 680, 683 (1973 ). Thus, when a defendant brings a
motion to challenge service of process, the Petitioner
bears the burden of proving that service was valid. Dill
v. Berquist Constr. Corp., 24 Cal. App. 18 4th 1426,
1439-40 (1994). Petitioner’s service by FedEx and email
was invalid. It did not comply with, and SinoType
never waived, the protections of the Hague Convention.
The purported “arbitration agreement” or MOU
attached to the Proof of Service is a void and 21
unenforceable document, and does not constitute a
waiver of service. (Dkt. No. 3.)

App. 105
A.

Service of the Summons By Mail Was
Not Proper

China is a party to the Hague Convention,2 thus,
SinoType, a Chinese company, must be served with
process pursuant to its terms. Volkswagenwerk
Aktiengesellschaft v. Schlunk, 486 U.S. 694,699 (1988)
(compliance with Hague Convention is mandatory);
Superior Court v. Beachport Entm’t Corp., 45 Cal. App.
4th 1126, 1133, 1136 (1996). To serve a Chinese party
under the Hague Convention, a Petitioner must submit
the summons and other documents to China’s Central
Authority, including both the original documents and
Chinese translations. Hague Convention, arts. 2 & 5
(Notice of Lodgment of Non-California Authorities
(“NOL”), Exh. A)3 Service is then effected by the
Chinese authority. Importantly, China prohibits
service of a summons by mail.4 In re LDK Solar Secs.
Litig., No. C07-05182, 2008 WL 2415186, at *1 (N.D.
Cal. Jun. 12, 2008) (“Service, therefore cannot be
effected by postal channels” in China.)5
2

See the Hague Conference on Private Int’l Law’s status table
regarding parties to the Hague Convention, http://www.hcch.net/
index._en.php?act=conventions.status&cid=17.
3

See also China- Central Authority & Practical Information,
available at http://www.hcch.net/index_en.php?act=authorities
.details&aid=243.

4

See Hague Convention, China Declaration Notification, 3,
available at http://www.hcch.net/index_en.php?act=
status.comment&csid=393&disp=resdn.

5

A Federal District Court’s interpretation of federal. Law
including any international treaty, is properly considered by

App. 106
There is no question that Rockefeller did not comply
with the Hague Convention when it served the
Summons. Rockefeller did not submit any documents
to China’s Central Authority and did not provide
SinoType with translations of the documents in
Mandarin. Instead, Rockefeller sent the documents to
SinoType via FedEx and email-methods not permitted
by 11 China. In re LDK Solar Secs. Litig., 2008 WL
2415186, at *1.
Rockefeller’s attempts to sanction its deficient
service are invalid. Rockefeller justified its deficient
service at the time by stating that California Code of
Civil Procedure Section 1290.4 allows service in the
manner provided in the arbitration agreement. (Dkt.
No. 3, Attachment to Proof of Service.) However, the
Hague Convention preempts any state and federal laws
governing service. Beachport, 45 Cal. App. 4th at 113336. Moreover, the purported “notice” and “service”
provisions of the MOU upon which Petitioner relied do
not constitute a valid waiver of service of process, as
discussed below.
B. SinoType Did Not Waive Service of Process
1. SinoType Did Not Knowingly
Voluntarily Agree to Service by Mail

or

A waiver of service of process must be “voluntary,
knowing, and intelligently made.” D.H Overmyer Co. v.
Frick Co., 405 U.S. 174, 184-85 (1972).

California state courts. Landstar Global Logistics, Inc. v. Robinson
& Robinson, Inc., 216 Cal. App. 4th 378,389 (2013).

App. 107
SinoType did not voluntarily, knowingly, or
intentionally waive the service requirements under the
Hague Convention. The “service” provision in the
MOU, or, “arbitration agreement” as it is identified in
the Proof of Service, does not even reference the Hague
Convention. (Dkt. 4 No.3.) Further, when Curt signed
the MOU, he did not intend to waive any protections of
the Hague Convention. (Huang Decl., ¶¶28-29.) Curt
did not even know the MOU had a provision 6 relating
to alternate service. (Id., ¶¶28.) Relying on Faye’s
repeated misrepresentations that the MOU was a “bèi
wàng lù” and Curt’s experience with business contracts
and negotiations in China and the United States, Curt
did not believe that the MOU was legally binding, let
alone that SinoType waived its legal right to formal
service of process. (Id., ¶¶26-29.) For all of these
reasons, there was no knowing, voluntary, or
intentional waiver of service.
2. The MOU and Its Service Provision Are
Void & Unenforceable
SinoType’s purported waiver of service is also
invalid because the entire MOU is void and
unenforceable. The MOU is not a legally binding
document but an amorphous “agreement to agree.” To
the extent Rockefeller and Faye Huang contend
otherwise, Curt’s signature on the document was
induced by fraud.
a. The MOU Is Void as an “Agreement to
Agree”
The MOU is unenforceable on the face of the
document because it omits key terms and provisions

App. 108
which would manifest an intent to be bound. California
precludes the enforcement of a contract when it cannot
be determined what terms the parties agreed upon.
Terry v. Conlon, 131 Cal. App. 4th 1445, 1459 (2005).
“The terms of the contract must be reasonably certain”
to be enforced. Id. at 602. Vague agreements to a
mutual “goal” or “agreements to agree” at some later
date are not enforceable. Terry, 131 Cal. App. 4th at
1459 (agreement to reach a goal not enforceable);
Bustamante v. Intuit, Inc., 141 Cal. App. 4th 199, 209
(2006) (agreement to agree or negotiate not
enforceable). Courts therefore review the provisions of
a term sheet or memorandum to determine whether
there is an intention to create a binding obligation on
the parties. Cedar Fair, L.P. v. City of Santa Clara, 194
Cal. App. 4th 1150, 1172 (2011) (finding no intent to
create a binding contract in the parties’ term sheet).
Here, the MOU lacks essential terms and is too
uncertain to create a binding obligation.
*

*

*

App. 109

APPENDIX I
COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
NO. BS149995
CERTIFIED COPY
[Dated February 24, 2016; April 6, 2016]
_____________________________________________
ROCKEFELLER TECHNOLOGY
)
INVESTMENTS (ASIA) VII,
)
)
PLAINTIFF-RESPONDENT,
)
)
VS.
)
)
CHANGZHOU SINOTYPE TECHNOLOGY
)
CO., LTD.,
)
)
DEFENDANT-APPELLANT.
)
_____________________________________________)
APPEAL FROM THE SUPERIOR COURT OF LOS
ANGELES COUNTY
HONORABLE RANDOLPH M. HAMMOCK, JUDGE
PRESIDING
REPORTERS’ TRANSCRIPT ON APPEAL
FEBRUARY 24, 2016; APRIL 6, 2016

App. 110
APPEARANCES:
FOR THE RESPONDENT:
SHEPPARD, MULLIN, RICHTER & HAMPTON, LL
BY: FRED R. PUGLISI, ESQ.
1901 AVENUE OF THE STARS
SUITE 1600
LOS ANGELES, CALIFORNIA 90067-6055
FOR THE APPELLANT:
LAW OFFICES OF STEVE QI & ASSOCIATES
BY: STEVE QI, ESQ.
388 EAST VALLEY BOULEVARD
SUITE 200
ALHAMBRA, CALIFORNIA 91801
SHAWNDA R. DORN, CSR NO. 11387
MARCO NEILLY, CSR NO. 13564
OFFICIAL REPORTERS PRO TEMPORE
(pp. 23-24)

*

*

*

THE COURT: THAT’S THE ONLY ONE THAT
CAN SAVE THE DAY FOR THEM AS FAR AS I’M
CONCERNED. BECAUSE IF THEY’RE
TECHNICALLY CORRECT, THEN MY DECISION
WILL BE DIFFERENT. BUT IF YOU TECHNICALLY
SERVED IT CORRECT UNDER THE AGREEMENT
OF THE PARTIES, AND YOU ARE ALLOWED TO DO
SO, YOU ARE GOING TO PREVAIL IN THIS
MOTION.
MR. PUGLISI: I KNOW THAT CHINA IS A
SIGNATORY TO THE HAGUE CONVENTION. I DO

App. 111
NOT KNOW EVERYTHING THEY HAVE AGREED
TO. HOWEVER, FOR PURPOSES OF WHAT WE DO
HERE, THAT IS IRRELEVANT.
THE COURT: TELL ME WHY.
MR. PUGLISI: BECAUSE YOU ARE ALLOWED -AS PART OF INTERNATIONAL ARBITRATION
GENERALLY, TWO CONTRACTING PARTIES ARE
ALLOWED TO AGREE ON THE WAY IN WHICH
THEY’RE GOING RESOLVE THEIR DISPUTES.
THAT’S WHAT INTERNATIONAL ARBITRATION IS
ALL ABOUT.
THE COURT: THIS IS WHAT I NEED. I WOULD
LIKE – – I KNOW THIS IS GOING TO DISAPPOINT
YOU. I WOULD LIKE A BRIEF SUPPLEMENTAL
BRIEFING. BRIEF. I’M GOING TO LIMIT IT TO TEN
PAGES. I DON’T WANT -- I WANT TO KNOW WHAT
IMPACT, IF ANY, THE FACT THAT CHINA
ALLEGEDLY -- FIRST OF ALL, YOU HAVE TO
PROVE TO ME THAT CHINA OBJECTED TO 10(A),
ALL RIGHT, AND THEN WHAT IMPACT, IF ANY, IS
THAT STILL GOING TO RESOLVE -- AFFECT THIS
CASE. IN OTHER WORDS, JUST BRIEF IT AND
GIVE ME YOUR POSITION. THAT’S THE ONLY
ISSUE I WANT TO HEAR ABOUT. PROVE TO ME
THAT CHINA HAS OBJECTED TO 10(A), AND
SHOW ME THAT EVEN IF THEY OBJECTED,
THEIR POSITION IS SO WHAT, YOU KNOW. YOU
COULD STILL -- YOU COULD STILL AGREE TO DO
IT EVEN THOUGH THAT CHINA HAS OBJECTED
TO IT. I DON’T KNOW. I DON’T KNOW ENOUGH
ABOUT INTERNATIONAL LAW AND THE THINGS
THAT HE IS TALKING ABOUT WHICH HAVE THE

App. 112
RING OF TRUTH TO IT. I DON’T KNOW HOW IT
AFFECT THINGS.
SO THE FACT THAT -- LET’S ASSUME THAT
IT’S A FACT THAT CHINA HAS FORMALLY -THEY’RE A SIGNATOR. THEY’RE LIKE
EVERYTHING ELSE BUT lO(A), ALL RIGHT. DOES
THAT MEAN THAT YOU CAN NEVER SERVE A
CHINESE COMPANY BY MAIL -- BY AGREEMENT
OF THE PARTIES? THERE HAS GOT TO BE -- IF
THAT’S THE CASE, THERE HAS GOT TO BE
SOMETHING OUT THERE, EVEN IN THE
INTERNATIONAL ARBITRATION LAW FIELD,
THAT WOULD ANSWER THAT QUESTION FOR ME.
MR. PUGLISI: ACTUALLY, I DON’T THINK YOU
ARE LIKELY TO FIND IT BECAUSE TT’S SO SELFEVIDENT THAT YOU ARE NOT LIKELY TO FIND A
CASE. WHAT I COULD DO IS TAKE YOU TO THE
INTERNATIONAL CHAMBER OF COMMERCE AND
GIVE YOU A THOUSAND CASES THAT WERE
FILED IN THE LAST YEAR.
THE COURT: OKAY. I WANT TO BE SAFE THAN
SORRY. SO I’M GOING TO ALLOW THE PARTIES
TO SUPPLEMENTAL BRIEF MAXIMUM TEN
PAGES. WE’LL COME BACK IN A COUPLE OF
WEEKS. AND THEN UNLESS YOU COULD
PERSUADE ME -- BECAUSE YOU STILL HAVE A
HEAVY BURDEN, ONE, BECAUSE YOU ARE
GOING TO LOSE ON ALL THOSE OTHER
ARGUMENTS. YOU DON’T BRIEF THEM AGAIN.
THE FOCUS IS YOUR FIRST ARGUMENT -- AND IF
YOU WANT TO EXPAND THE FRCP, YOU MAY GO
RIGHT AHEAD, BUT I’M NOT OVERLY -- BUT

App. 113
MAYBE YOU WILL FIND SOMETHING THAT I
NEED TO CONSIDER.
*

*

*

App. 114

APPENDIX J
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF LOS ANGELES
CASE NO. BS149995
[Filed: March 8, 2016]
STEVE QI (Bar No. CA-228223)
steveqi@sqilaw.com
CHLOE S. XIU (Bar No. CA-270213)
chloexiu@sqilaw.com
LAW OFFICES OF STEVE QI & ASSOCIATES
388 E. Valley Blvd., Suite 200
Alhambra, CA 91801
Tel: 626.282.9878
Fax: 626.282.8968
__________________________________________
ROCKEFELLER TECHNOLOGY
)
INVESTMENTS (ASIA) VII,
)
)
Petitioner,
)
)
v.
)
)
CHANGZHOU SINOTYPE TECHNOLOGY )
CO., LTD.,
)
)
Respondent.
)
__________________________________________)

App. 115
SPECIALLY APPEARING RESPONDENT
CHANGZHOU SINOTYPE TECHNOLOGY CO.,
LTD.’S SUPPLEMENTAL BRIEF IN SUPPORT
OF MOTION TO QUASH AND TO SET ASIDE
DEFAULT JUDGMENT FOR IN SUFFICIENCY
OF SERVICE OF PROCESS
Date: April 6, 2016
Time: 1:30PM
Judge: Hon. Randolph Hammock
Dept.: 77
TO ALL PARTIES AND THEIR ATTORNEYS OF
RECORD:
Specially appearing Respondent CHANGZHOU
SINOTYPE TECHNOLOGY CO., LTD. (Sinotype),
hereby submits the following supplemental brief in
support of its Motion to Quash and to Set Aside Default
Judgment.
*

*

*

(pp. 3-4)
of the Convention to the less compelling state service
requirements. Ibid. Therefore, where the Hague
Convention provides a rule of decision, that rule is
dispositive of the issue and contrary state laws
regarding service of process or waiver need not be
considered.
California in fact mandates compliance with the
Hague Convention in Code of Civil Procedure section
413.10(c). Failure to comply with the Hague Service
Convention procedures voids the service even though it

App. 116
was made in compliance with California law. Kott v.
Superior Court, 45 Cal.App.4th 1126, 1136 (1996). See
also Porsche v. Superior Court 123 Cal.App.3d 8 755,
760-762 (1981) (a California court may not exercise
jurisdiction in violation of an international treaty.
Failure to comply with the Hague Convention was
controlling and even a showing of actual notice is
insufficient to avoid the effect of noncompliance).
Therefore, this Court may not exercise jurisdiction in
violation of the Hague Convention which clearly
provides that Chinese defendants may not be served
through postal channels, a mandate which is
dispositive of the issue at hand and not subject to
interference by California state law.
III. CHINA’S OBJECTION TO ARTICLE 10(a) OF
THE HAGUE CONVENTION IS DISPOSIVE AND
DEFENDANT CANNOT BE SERVED THROUGH
POSTAL CHANNELS
As have already been stated in Respondent’s moving
papers, service cannot be effected by postal channels in
China. China objected to the entire Article 10 of the
Hague Convention, including 10(a), and service
therefore cannot be effected by postal channels in
China. In re LDK Solar Securities Litigation, 2008 WL
2415186, *1.1 Moreover, any attempt to distinguish
email and facsimile from the “postal channels” referred
to in the text of Article 10 is unavailing. Agha v.
1

See also Hague Convention, China Declaration Notification, 3,
available at http://www.hcch.net/index_en.php?act=status.comm
ent&csid=393&disp=resdn; See also China - Central Authority &
practical information, available at https://www.hcch.net/en/states
/authorities/details3/?aid=243.

App. 117
Jacobs, 2008 WL 2051061, *2. Service by email, as the
Petitioner also attempted to do here, is therefore
considered to be a type of postal channel, and equally
unacceptable when it comes to serving Defendant of a
country which is a member of the Hague Convention
and which objected to Article 10(a).Respondent must be
served through the Chinese Central Authority. All
documents and evidence to be served must also be
written in Chinese or to have Chinese translations
attached.2
Mail service is only an option in Hague countries
that have not objected to Article 10(a). If the Hague
Convention is applicable, its provisions preempt
inconsistent methods of service prescribed by state law.
Volkswagenwerk Aktiengesellschaft, 486 U.S. 694 at
699. Petitioner in the instant case utterly failed to even
attempt to serve the Respondent as mandated by the
Hague Convention. Moreover, no Chinese translations
were attached to any of the documents sent from the
Petitioner to the Respondent. Petitioner’s disregard for
the Convention’s mandates and its failure to properly
serve a Chinese company has consequences that it
cannot argue away with baseless assumptions.
China’s objection to Article 10(a) of the Hague
Convention is dispositive on the issue and Petitioner
failed to cite any case holding that the Hague
Convention Service Provision can be waived
contractually, let alone any case indicating that the
alleged waiver in this case was in fact valid. Because

2

See China - Central Authority & practical information, available
at https://www.hcch.net/en/states/authorities/details3/?aid=243.

App. 118
the Hague Convention is the supreme law of the land,
any state law regarding waiver would be irrelevant
because state service rules are not “substantial” enough
to override federal rule. See Hanna v. Plumer, 380 U.S.
460; Morse v. Elmira County Club, 752 F.2d 35, 38 17
(same).
IV. NO EXCEPTIONS TO THE HAGUE SERVICE
CONVENTION ARE AVAILABLE TO THE
PETITIONER UNDER CALIFORNlA OR
FEDERAL LAW
1. The Only Method of Service Under California
Law Which Does Not Require The Transmission
of Documents Abroad, and Consequently Does
Not Implicate The Hague Service Convention Is
Service of Summons By Publication
Article 1 of the Convention states that “[t]his
Convention shall not apply where the address of the
person to be served with the document is not known.”
Appen. to Fed. Rules Civ. Proc., rule 4, 28 U.S.C. Under
California law, the only method of service with regards
to serving a foreign defendant which does not require
the transmission of documents abroad, and

App. 119

APPENDIX K
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA,
SECOND APPELLATE DISTRICT, DIVISION 3
2ND Dist. Civil No.: B272170
Los Angeles Superior Court No.: BS149995
Judicial Officer Information: The Honorable
Randolph Hammock, Presiding in Dept. 47
[(213) 633-0647]
[Filed: August 18, 2017]
_____________________________________________
Changzhou Sinotype Technology Co., Ltd.
)
)
Appellant/Defendant,
)
)
vs.
)
)
Rockefeller Technology Investments (Asia),
)
)
Respondent/Plaintiff.
)
_____________________________________________)
APPELLANT’S OPENING BRIEF
Appeal From the Order of the Superior Court of
California, in and for the County of Los Angeles,
Entered April 15, 2016, by the Honorable Randolph
Hammock, Judicial Officer Presiding, Superior Court

App. 120
Case No.: BS149995, Denying a Motion to Vacate a
Default Judgment.
Steve Qi, Esq. (SBN 228223)
May T. To, Esq. (SBN 305268)
LAW OFFICES OF STEVE QI & ASSOCIATES388
E. Valley Blvd., Suite 200
Alhambra, CA 91801
Tel: (626) 282.9878
Fax: (626) 282.8968
Email: steveqi@sqilaw.com;
mayto@sqilaw.com
Attorneys for Appellant:
Changzhou Sinotype Technology Co., Ltd.
Steven L. Sugars, Esq. (SBN 154799)
LAW OFFICES OF STEVEN L. SUGARS
2485 Huntington Drive
San Marino, CA 91108
Telephone: (626) 243-3343
Facsimile: (626) 609-0439
Email: sugarslaw@gmail.com
Attorney for Appellant:
Changzhou Sinotype Technology Co., Ltd.
(pp. 30-35)

*

*

*

the defendant had actual notice of the lawsuit.
[Citations.]” (Kott, 45 Cal.App.4th at 1136.)
The Hague Convention is a multilateral treaty
formulated in 1964 by the Tenth Session of the Hague
Conference of Private International Law. (Kott, 45
Cal.App.4th at 1133.) The 1964 version was intended to

App. 121
provide a simpler way to serve process abroad, to
assure defendants sued in foreign jurisdictions would
receive actual and timely notice of suit, and to facilitate
proof of service abroad. (Id., citing Volkswagenwerk
Aktiengesellschaft v. Schlunk (1988) 486 U.S. 694,
698).
Article 1 of the Hague Convention declares that the
Convention “shall apply in all cases, in civil or
commercial matters, where there is occasion to
transmit a judicial or extrajudicial document for service
abroad.” Article 10(a) provides that, as long as the
“State of destination” does not object, the Convention
“shall not interfere with the freedom to send judicial
documents, by postal channels, directly to persons
abroad.” The People’s Republic of China has objected to
Article 10. See Hague Convention, China Declaration
Notification, 3, available at http://www.hcch.net/index_
en.php?act=status.comment&csid=393&disp=resdn
(declaring “to oppose the service of documents in the
territory of the People’s Republic of China by the
methods provided by Article 10 of the Convention”).
The Convention entered into force in the United
States on February 10, 1969. China became signatory
to the Hague Service Convention on March 2, 1991 and
entered into force on January 1, 1992 with objections to
service pursuant to Articles 8, 10, 15 and 16 of the
Convention. With reservation to service in accordance
with Article 8, China only permits direct service
through the requesting state’s diplomatic or consular
agents when there is an attempt to serve process on
their nationals. Service of process via postal channels,
through judicial officers or other competent persons

App. 122
and interested persons specified in Article 10(a)(b)(c) is
prohibited in China under the Hague Service
Convention. See U.S. Dep’t of State, Country Specific
U.S. State Department Circulars, Judicial Assistance
- China, in International Business Litigation &
Arbitration 2005, Litigation and Administrative
Practice Course Handbook Series, PLI Order No. 5929,
721 PLI/Lit 1311, 1311, 1313 (Practising Law Institute
ed., March 2005). Under current Chinese civil
procedure law, service of process is regarded as a
“judicial” or “sovereign” act that may not be performed
by a private person. The People’s Republic of China in
Articles 260 and 261 of its Civil Procedure Law, which
was in effect in the year 2012 when the Petition to
Confirm the Arbitration Award was allegedly served by
mail, and which remains in force today, although
re-codified as Articles 276 and 277, has detailed the
sole means for foreign litigants to obtain international
judicial assistance in China. See People’s Republic of
China Civil Procedure Law, arts. 260 & 261, subject of
a Motion for Judicial Notice in this case, filed
contemporaneously with this Appellant’s Opening Brief
(hereinafter the “MJN”).
Then effective Article 260 of the Civil Procedure
Law of the People’s Republic of China (translated into
English) (see MJN) provides, in pertinent part:
“Article 260 A people’s court and a foreign court
may mutually request each other for service of
documents, investigation, evidence collection
and other litigation acts on their respective
behalf in accordance with the international
treaties concluded or acceded to by the People’s

App. 123
Republic of China or according to the principle of
reciprocity.
If any matter for which a foreign court
requests assistance harms the sovereignty,
security or social public interest of the People’s
Republic of China, a people’s court shall refuse
to enforce the matter.”
Then effective Article 261 of the Civil Procedure
Law of the People’s Republic of China (translated into
English) (see MJN) (hereinafter “Article 261” provides,
in pertinent part:
“Article 261. A request for and the provision of
judicial assistance shall be conducted through
channels stipulated in the international treaties
concluded or acceded to by the People’s Republic
of China, and in the absence of treaty relations,
shall be conducted through diplomatic channels.
An embassy or consulate of a foreign country
in the People’s Republic of China may serve
documents on, investigate, or collect evidence
from the citizens of that country, provided,
however, that the laws of the People’s Republic
of China are not violated and that no compulsory
measures are adopted.
Except for the circumstances specified in the
preceding paragraph, no foreign agency or
individual may serve documents, conduct
investigations or collect evidence within the
territory of the People’s Republic of China
without the consent of the in-charge authorities

App. 124
of the People’s Republic of China.” [Emphasis
added]
Article 261 states that any request for judicial
assistance “shall be conducted through channels
stipulated in the international treaties concluded or
acceded to by the People’s Republic of China” or
through diplomatic channels. People’s Republic of
China Civil Procedure Law, arts. 260 & 261 (see MJN).
The Hague Service Convention is precisely the
international treaty contemplated by Article 261 to
which China has acceded with the intention of
channeling all requests for judicial assistance through
the mechanism provided by the treaty and China’s
implementing legislation in compliance with the Hague
Service Convention. In acceding to the Hague Service
Convention, China took a limited reservation with
regard to service of process by mail, further indicating
its determination to control the intrusion of foreign
legal process on Chinese judicial sovereignty. Indeed,
according to the U.S. State Department’s website,
service of process by mail should NOT be used in
China. Bureau of Consular Affairs, U.S. Dep’t of State,
China Judicial Assistance, https://travel.state.gov/cont
ent/travel/en/legalconsiderations/judicial/country/
china.html.
“China . . .
Party to Hague Service Convention? Yes
Party to Hague Evidence Convention? Yes
Party to Hague Apostille Convention? Yes
Party to Inter-American Convention? No
Service of Process by Mail? No”

App. 125
Although the Hague Convention “liberalized service
of process in international civil suits,” (see Brockmeyer
v. May, (9th Cir. 2004) 383 F.3d 798, 801), it does not,
by itself, provide an affirmative answer to what specific
types of service are allowed in a particular case.
The English text of Article 10 of the Convention
reads as follows:
“Provided the State of destination does not object,
the present Convention shall not interfere with—
(a) the freedom to send judicial documents, by
postal channels, directly to persons abroad,
“(b) the freedom of judicial officers, officials or other
competent persons of the State of origin to effect
service of judicial documents directly through the
judicial officers, officials or other competent persons of
the State of destination,
“(c) the freedom of any person interested in a
judicial proceeding to effect service of judicial
documents directly through the judicial officers,
officials or other competent persons of the State of
destination.”
In Water Splash, Inc. v. Menon, (2017) 137 S. Ct.
1504, 1508 (“Water Splash”), a unanimous United
States Supreme Court, recently resolved a split
between the Second Circuit and Eighth Circuit Court
of Appeals and held that the Convention does not
prohibit service by mail but also held, “this does not
mean that the Convention affirmatively authorizes
service by mail.”(Id.) The Court then went on to state
that, “in cases governed by the Hague Service

App. 126
Convention, service by mail is permissible if two
conditions are met: first, the receiving state has not
objected to service by mail; and second, service by
mail is authorized under otherwise-applicable law.”
[emphasis added] (Id.)
Service on a Chinese company by mail is not
effective in California or anywhere else in the United
States, as California and other U.S. courts have held
that formal objections to service by mail under Article
10(a) of the Convention are valid. (Dr. Ing H.C. F.
Porsche A.G. v. Superior Court, (1981) 123 Cal. App. 3d
755, 761 (rejecting attempt to serve a German
defendant by mail where Germany had objected to
Article 10(a) of the Convention)). “By virtue of the
supremacy clause, the [Hague Service Convention]
overrides state methods of serving process abroad that
are objectionable to the nation in which the process is
served.”(See DeJames v. Magnificence Carriers, Inc.,
(3d Cir. 1981) 654 F.2d 280).
It is beyond reasonable dispute that China has
objected to service by mail since China has objected to
Article 10 which is the Article providing for service by
mail. It is also beyond dispute that China views
attempts to serve its citizens by mail as an insult to its
sovereignty and a violation of the treaty it entered into
with the United States. It is beyond dispute, also, that
China does not recognize or permit informal service on
its citizens even by their own consent under Article 5 of
the Convention.
*

*

*

App. 127

APPENDIX L
No. S249923
IN THE SUPREME COURT FOR THE STATE
OF CALIFORNIA
[Filed: May 21, 2019]
_____________________________________________
Changzhou Sinotype Technology Co., Ltd.,
)
)
Appellant/Defendant,
)
)
vs.
)
)
Rockefeller Technology Investments (Asia),
)
)
Respondent/Plaintiff.
)
_____________________________________________)
Second Appellate District Court of Appeal
Civil No.: B272170
Los Angeles Superior Court
Case No.: BS149995
Judicial Officer Information:
The Honorable Randolph Hammock, Presiding
in Dept. 47 [(213) 633-0647]
______________________________________
ANSWER BRIEF ON THE MERITS
On Review of a Published Opinion of the Second
District Court of Appeal, Division Three
Case No. B272170

App. 128
Steve Qi, Esq. (SBN 228223)
LAW OFFICES OF STEVE QI & ASSOCIATES388
E. Valley Blvd., Suite 200
Alhambra, CA 91801
Tel: (626) 282.9878
Fax: (626) 282.8968
Email: steveqi@sqilaw.com
Attorney for Appellant and Answering Party:
Changzhou Sinotype Technology Co., Ltd.
Steven L. Sugars, Esq. (SBN 154799)
LAW OFFICES OF STEVEN L. SUGARS
2485 Huntington Drive
San Marino, CA 91108
Telephone: (626) 243-3343
Facsimile: (626) 609-0439
Email: sugarslaw@gmail.com
Attorney for Appellant and Answering Party:
Changzhou Sinotype Technology Co., Ltd.
*

*

*

App. 129
(pp. 29-43)
IV. ARGUMENT
A. THE MOTION TO VACATE THE DEFAULT
JUDGMENT AFFIRMING THE ARBITRATION
AWARD SHOULD HAVE BEEN GRANTED
BECAUSE THE JUDGMENT IS VOID FOR
FAILING TO COMPLY WITH THE HAGUE
CONVENTION.
Failure to comply with the Hague Convention
renders any attempt at service of process void, even if
the defendant has actual notice of the lawsuit. (See
Floveyor Internat., LTD. vs. Superior Court (1997) 59
Cal.App.4th 789, 795, citing Honda Motor Co. vs.
Superior Court (1992) 10 Cal.App.4th 1043, 1049, and
Dr. Ing. H.C.F. Porsche A.G. vs. Superior Court (1981)
123 Cal.App.3d 755, 762 (“Dr. Ing.”)). The cases in this
area specifically hold that such service is VOID AB
INITIO, not merely voidable. The distinction between
void ab initio and merely “voidable” is, of course, that
a judgment which is void ab initio is a nullity, may be
ignored and may be set aside at any time by any court,
either a trial court or a reviewing court. (Stowe vs.
Matson, (1954) 94 Cal.App.2d 678.) “A judgment or
order that is invalid on the face of the record is subject
to collateral attack. [Citation.] It follows that it may be
set aside on motion, with no limit on the time within
which the motion must be made.” (8 Witkin, Cal.
Procedure (5th ed. 2016) Attack on Judgment in Trial
Court, § 207, p. 812; see, also, Peralta vs. Heights
Medical Center, (1988) 485 U.S. 80,85-87 (proceeding
to vacate default held timely though filed 6 years after
judgment was entered where default was void)).

App. 130
Such a motion to vacate a void judgment may be
made under Code of Civil Procedure Section 473(d),
which provides, in pertinent part:
“(d) The court may, upon motion of the injured
party, or its own motion, correct clerical
mistakes in its judgment or orders as entered, so
as to conform to the judgment or order directed,
and may, on motion of either party after notice
to the other party, set aside any void judgment
or order.”
In Kott vs. Superior Court (1996) 45 Cal.App.4th
1126 (Kott), the Court of Appeal held that “[f]ailure to
comply with the Hague Service Convention procedures
voids the service even though it was made in
compliance with California law. [Citation.] This is true
even in cases where the defendant had actual notice of
the lawsuit. [Citations.]” (Kott, 45 Cal.App.4th at
1136.)
The Hague Convention is a multilateral treaty
formulated in 1964 by the Tenth Session of the Hague
Conference of Private International Law. (Kott, 45
Cal.App.4th at 1133.) The 1964 version was intended to
provide a simpler way to serve process abroad, to
assure defendants sued in foreign jurisdictions would
receive actual and timely notice of suit, and to facilitate
proof of service abroad. (Id., citing Volkswagenwerk
Aktiengesellschaft v. Schlunk (1988) 486 U.S. 694,
698).
Article 1 of the Hague Convention declares that the
Convention “shall apply in all cases, in civil or
commercial matters, where there is occasion to

App. 131
transmit a judicial or extrajudicial document for service
abroad.” Article 10(a) provides that, as long as the
“State of destination” does not object, the Convention
“shall not interfere with the freedom to send judicial
documents, by postal channels, directly to persons
abroad.” The People’s Republic of China has objected to
Article 10. See Hague Convention, China Declaration
Notification, 3, available at http://www.hcch.net/index
_en.php?act=status.comment&csid=393&disp=resdn
(declaring “to oppose the service of documents in the
territory of the People’s Republic of China by the
methods provided by Article 10 of the Convention”).
The Convention entered into force in the United
States on February 10, 1969. China became signatory
to the Hague Service Convention on March 2, 1991 and
entered into force on January 1, 1992 with objections to
service pursuant to Articles 8, 10, 15 and 16 of the
Convention. With reservation to service in accordance
with Article 8, China only permits direct service
through the requesting state’s diplomatic or consular
agents when there is an attempt to serve process on
their nationals. Service of process via postal channels,
through judicial officers or other competent persons
and interested persons specified in Article 10(a)(b)(c) is
prohibited in China under the Hague Service
Convention. See U.S. Dep’t of State, Country Specific
U.S. State Department Circulars, Judicial Assistance
- China, in International Business Litigation &
Arbitration 2005, Litigation and Administrative
Practice Course Handbook Series, PLI Order No. 5929,
721 PLI/Lit 1311, 1311, 1313 (Practising Law Institute
ed., March 2005). Under current Chinese civil
procedure law, service of process is regarded as a

App. 132
“judicial” or “sovereign” act that may not be performed
by a private person. The People’s Republic of China in
Articles 260 and 261 of its Civil Procedure Law, which
was in effect in the year 2012 when the Petition to
Confirm the Arbitration Award was allegedly served by
mail, and which remains in force today, although
re-codified as Articles 276 and 277, has detailed the
sole means for foreign litigants to obtain international
judicial assistance in China. See People’s Republic of
China Civil Procedure Law, arts. 260 & 261, subject of
a Motion for Judicial Notice in the Second Appellate
District Court of Appeal, filed contemporaneously with
Appellant’s Opening Brief in the Court of Appeal which
was granted by the Court of Appeal (hereinafter the
“MJN”).
CA Rules of Court, Rule 8.500(c)(2), provides, in
pertinent part, as follows:
“A party may petition for review without
petitioning for rehearing in the Court of Appeal,
but as a policy matter the Supreme Court
normally will accept the Court of Appeal
opinion’s statement of the issues and facts
unless the party has called the Court of Appeal’s
attention to any alleged omission or
misstatement of an issue or fact in a petition for
rehearing.”
See, e.g., People v. Peevy (1998) 17 Cal.4th 1184,
1205-1206 and People v. Bransford (1994) 8 Cal.4th
885, 893, fn. 10.
No Petition for Rehearing was filed in the Court of
Appeal in this case. Therefore, apparently, this Court

App. 133
should accept the matters of fact which were accepted
by the Court of Appeal in its granting of the Motion for
Judicial Notice.
Then effective Article 260 of the Civil Procedure
Law of the People’s Republic of China (translated into
English) (see MJN) provides, in pertinent part:
“Article 260 A people’s court and a foreign court
may mutually request each other for service of
documents, investigation, evidence collection
and other litigation acts on their respective
behalf in accordance with the international
treaties concluded or acceded to by the People’s
Republic of China or according to the principle of
reciprocity.
If any matter for which a foreign court
requests assistance harms the sovereignty,
security or social public interest of the People’s
Republic of China, a people’s court shall refuse
to enforce the matter.”
Then effective Article 261 of the Civil Procedure
Law of the People’s Republic of China (translated into
English) (see MJN) (hereinafter “Article 261” provides,
in pertinent part:
“Article 261. A request for and the provision of
judicial assistance shall be conducted through
channels stipulated in the international treaties
concluded or acceded to by the People’s Republic
of China, and in the absence of treaty relations,
shall be conducted through diplomatic channels.

App. 134
An embassy or consulate of a foreign country
in the People’s Republic of China may serve
documents on, investigate, or collect evidence
from the citizens of that country, provided,
however, that the laws of the People’s Republic
of China are not violated and that no compulsory
measures are adopted.
Except for the circumstances specified in the
preceding paragraph, no foreign agency or
individual may serve documents, conduct
investigations or collect evidence within the
territory of the People’s Republic of China
without the consent of the in-charge authorities
of the People’s Republic of China.” [Emphasis
added]
Article 261 states that any request for judicial
assistance “shall be conducted through channels
stipulated in the international treaties concluded or
acceded to by the People’s Republic of China” or
through diplomatic channels. People’s Republic of
China Civil Procedure Law, arts. 260 & 261 (see MJN).
The Hague Service Convention is precisely the
international treaty contemplated by Article 261 to
which China has acceded with the intention of
channeling all requests for judicial assistance through
the mechanism provided by the treaty and China’s
implementing legislation in compliance with the Hague
Service Convention. In acceding to the Hague Service
Convention, China took a limited reservation with
regard to service of process by mail, further indicating
its determination to control the intrusion of foreign
legal process on Chinese judicial sovereignty. Indeed,

App. 135
according to the U.S. State Department’s website,
service of process by mail should NOT be used in
China. Bureau of Consular Affairs, U.S. Dep’t of State,
China Judicial Assistance, https://travel.state.gov/con
tent/travel/en/legalconsiderations/judicial/country/chi
na.html.

“China . . .
Party to Hague Service Convention? Yes
Party to Hague Evidence Convention? Yes
Party to Hague Apostille Convention? Yes
Party to Inter-American Convention? No
Service of Process by Mail? No”
Although the Hague Convention “liberalized service
of process in international civil suits,” (see Brockmeyer
v. May, (9th Cir. 2004) 383 F.3d 798, 801), it does not,
by itself, provide an affirmative answer to what specific
types of service are allowed in a particular case.
The English text of Article 10 of the Convention
reads as follows:
“Provided the State of destination does not object,
the present Convention shall not interfere with—
(a) the freedom to send judicial documents, by
postal channels, directly to persons abroad,
“(b) the freedom of judicial officers, officials or other
competent persons of the State of origin to effect
service of judicial documents directly through the
judicial officers, officials or other competent persons of
the State of destination,

App. 136
“(c) the freedom of any person interested in a
judicial proceeding to effect service of judicial
documents directly through the judicial officers,
officials or other competent persons of the State of
destination.”
In Water Splash, Inc. v. Menon, (2017) 137 S. Ct.
1504, 1508 (“Water Splash”, a unanimous United
States Supreme Court, recently resolved a split
between the Second Circuit and Eighth Circuit Court
of Appeals and held that the Convention does not
prohibit service by mail but also held, “this does not
mean that the Convention affirmatively authorizes
service by mail.”(Id.) The Court then went on to state
that, “in cases governed by the Hague Service
Convention, service by mail is permissible if two
conditions are met: first, the receiving state has not
objected to service by mail; and second, service by
mail is authorized under otherwise-applicable law.”
[emphasis added] (Id.)
Service on a Chinese company by mail is not
effective in California or anywhere else in the United
States, as California and other U.S. courts have held
that formal objections to service by mail under Article
10(a) of the Convention are valid. (Dr. Ing H.C. F.
Porsche A.G. v. Superior Court, (1981) 123 Cal. App. 3d
755, 761 (rejecting attempt to serve a German
defendant by mail where Germany had objected to
Article 10(a) of the Convention)). “By virtue of the
supremacy clause, the [Hague Service Convention]
overrides state methods of serving process abroad that
are objectionable to the nation in which the process is

App. 137
served.” (See DeJames v. Magnificence Carriers, Inc.,
(3d Cir. 1981) 654 F.2d 280).
It is beyond reasonable dispute that China has
objected to service by mail since China has objected to
Article 10 which is the Article providing for service by
mail. It is also beyond dispute that China views
attempts to serve its citizens by mail as an insult to its
sovereignty and a violation of the treaty it entered into
with the United States. It is beyond dispute, also, that
China does not recognize or permit informal service on
its citizens even by their own consent under Article 5 of
the Convention.
The English text of Article 5 of the Convention
reads as follows:
“Article 5 - The Central Authority of the State
addressed shall itself serve the document or
shall arrange to have it served by an appropriate
agency, either –
a) by a method prescribed by its internal law
for the service of documents in domestic actions
upon persons who are within its territory, or
b) by a particular method requested by the
applicant, unless such a method is
incompatible with the law of the State
addressed.
Subject to sub-paragraph (b) of the first
paragraph of this Article, the document may
always be served by delivery to an addressee
who accepts it voluntarily.

App. 138
If the document is to be served under the first
paragraph above, the Central Authority may
require the document to be written in, or
translated into, the official language or one of
the official languages of the State addressed.
That part of the request, in the form attached to
the present Convention, which contains a
summary of the document to be served, shall be
served with the document.” [emphasis added]
Proper service under the Hague Convention is
effected through the designated Chinese Central
Authority in Beijing, which is the “Bureau of
International Judicial Assistance, Ministry of Justice
of the People’s Republic of China”. A Plaintiff, which
includes a Plaintiff that is suing in a California Court,
seeking to sue a company which resides within the
territorial boundaries of the People’s Republic of China
must submit the following to the Ministry of Justice:
a. A completed United States Marshals Service
Form USM-94
b. The original English version of the documents to
be served (the summons must have the issuing court’
seal)
c. The Chinese translation of all documents to be
served.
d. A photocopy of each of these documents. (See
below.)
The U.S. State Department’s website provides,
as follows:

App. 139
“China is a party to the Hague Convention on
the Service Abroad of Judicial and Extra
Judicial Documents in Civil and Commercial
Matters. Complete information on the operation
of the Convention, including an interactive
online request form are available on the Hague
Conference website. Requests should be
completed in duplicate and submitted with two
sets of the documents to be served, and
translations, directly to China’s Central
Authority for the Hague Service Convention.
The person in the United States executing the
request form should be either an attorney or
clerk of court. The applicant should include the
titles attorney at law or clerk of court on the
identity and address of applicant and
signature/stamp fields. In its Declarations and
Reservations on the Hague Service Convention,
China formally objected to service under Article
10, and does not permit service via postal
channels. For additional information see the
Hague Conference Service Convention website
and the Hague Conference Practical Handbook
on the Operation of the Hague Service
Convention. See also China’s response to the
2008 Hague Conference questionnaire on the
practical operation of the Service Convention.”
Bureau of Consular Affairs, U.S. Dep’t of State,
China Judicial Assistance,
https://travel.state.gov/content/travel/en/legalc
onsiderations/judicial/country/china.html

App. 140
In the written response of the People’s Republic of
China to the Hague Service Convention Questionnaire,
Questions for Contracting States, China specifically
indicates that it does not permit its citizens to agree to
informally accept service without involvement of the
Central Authority and without the documents being
translated into the Chinese language. See Hague
Service Convention Questionnaire, Questions for
Contracting States (2008), at: http://www.hcch.net/upl
oad/wop/2008china14.pdf, at page “19” thereof:
“c. Informal delivery (Art. 5(2))
[question] (i) Does the law of your State
provide for informal delivery of documents
(understood to be a method of service where the
documents to be served are delivered to an
addressee who accepts them voluntarily)?
....
[answer] [X] NO”
and see, also, Hague Service Convention
Questionnaire, Questions for Contracting States (2008),
at:
http://www.hcch.net/upload/wop/2008china14.pdf, at
page “21” thereof:
“C. Translation requirements (Art. 5(3)) 30)
Please indicate if your State, as a requested
State, imposes any language or translation
requirements for documents to be served in your
State under Article 5(1) (see Conclusions and
Recommendations Nos 67 and 68 of the 2003
Special Commission):
....

App. 141
[X] YES - please indicate what these requirements
are, in each of the following set of circumstances:
a. Formal service (Art. 5(1) a)):
In circumstances where the/ a Central Authority
of your State, as a requested State, is in a
position to assess the content and nature of the
request for service based on the “Summary”
section of the Model Form and where there is
evidence that the addressee is fluent in the
language in which the document to be served is
written. Would your State then still insist,
under Article 5(1) a), that the document be
translated into another language (i.e., one of the
official languages of your State)?
[X] YES - please indicate why:
According to the domestic law, the documents to be
served must be in Chinese language.”
Completely ignoring the rules of service of process
required by the Hague Convention, Respondent
Rockefeller in this case obtained the Default Judgment
described above by transmitting the Petition to confirm
the arbitration award to SinoType in China via postal
channels without complying with the Hague
Convention in any way. This Court should find that
Parties may not waive due process procedures created
by the Hague Convention in the manner in which
Rockefeller has claimed was done in this instance.
China does not permit parties to informally waive their
rights to service of legal documents under Article 5 of
the Convention. China does not permit legal documents
to be served unless they are translated into Chinese

App. 142
and served formally by the Central Authority in China.
China does not permit legal documents to be served by
mail. Therefore, the Petition to confirm the award, the
award, and, indeed, the arbitration notices themselves,
were not properly served in compliance with the
Convention, and the Default Judgment is void ab initio
since the attempted service violated a treaty of the
United States with the People’s Republic of China
under Dr. Ing. and Kott, and, indeed, under the U.S.
Supreme Court’s recent decision in Water Splash
wherein it was held that, for service by mail under the
Convention to be effective, it must be something that
“he receiving state has not objected to” (Dr. Ing., 123
Cal. App. 3d at 761; Kott, 45 Cal.App.4th at 1136; and
Water Splash, 137 S. Ct. at 1508.)
B. CONTRARY TO ROCKEFELLER’ POSITION,
THERE IS NO EXCEPTION TO THE HAGUE
CONVENTION FOR PRIVATE CONTRACTS
WHICH WOULD BAR CHINA FROM DECIDING
HOW ITS CITIZENS ARE TO BE SERVED WITH
JUDICIAL AND EXTRAJUDICIAL DOCUMENTS.
In its Opening Brief on the Merits, Plaintiff and
Respondent argues that general provisions of the
Hague Conference on Private International Law (the
“HCCH”) which purport to allow private parties to
make their own rules for litigation somehow trump or
supersede express prohibitions of the Hague
Convention on service of process. This is the so called
“personal autonomy” argument. There is no merit to
the argument in this context. China wants its citizens
to be served in a certain way, i.e. documents translated
into Chinese and delivered by the central authority so

App. 143
that the government can control the process in that
way. The United States government agreed to abide by
that treaty. International Treaties are the law of the
land. Due process requires that the law be followed.
Failure to abide by the Hague Convention renders any
default judgment obtained void ab initio. (Dr. Ing., 123
Cal. App. 3d at 761; Kott, 45 Cal.App.4th at 1136; and
Water Splash, 137 S. Ct. at 1508.) This is not
controversial, despite Rockefeller’s refusal to
acknowledge this and citation to other areas of law
where there is more ambiguity. Rockefeller still does
not offer any “plausible textual footing” (Water Splash,
137 S. Ct. at 1509-1510) for the proposition that parties
may contract around the Hague Service Convention.
Rockefeller cites D. H. Overmyer Co. v. Frick Co.
(1972) 405 U.S. 174 which stands for the proposition
that corporations can waive their rights to notices and
hearings in the United States. That case and the
concept 43 behind it are totally irrelevant. The U.S.
government, in this instance, has agreed with China
that its citizens, in China, will only be served in a
certain way. That is nonwaivable right. One might ask,
“How does one know it’s a non-waivable right?”
Because China, itself, takes that position in the treaty
and in the questionnaire wherein it is asked whether
its citizens can simply consent to service. In effect,
fundamentally, it is not even a just a right of the
litigants that we are discussing here, it is a right of
sovereignty of the Chinese government guaranteed to
it by a treaty. Nothing in any case cited by Rockefeller
suggests that treaties can be ignored.

App. 144
Rockefeller also asserts that there is something
unfair or oppressive about litigants having to re-write
their contracts in such a way that they are legally
enforceable, and with the ability of litigants in “India”
and “China” to take advantage of liberal service of
process policies in the United States, but nevertheless,
forcing U.S. litigants suing people residing in India and
China to serve their process through the central
authorities there. It is not China’s or India’s fault that
the drafters of contracts in the United States don’t
bother to read and understand international treaties.
Respectfully, Rockefeller should take these disputes up
with India and China.
Perhaps most appallingly, in a desperate attempt to
circumvent this Court’s own statement as to what the
one single issue is in this Review, Rockefeller argues in
footnote 3, on page 6 of it Brief on the Merits, that

